<html>
<title> - HEARINGS ON NATIONAL DEFENSE AUTHORIZATION ACT
FOR FISCAL YEAR 2006 AND OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]


 
                          [H.A.S.C. No. 109-5] 

                                HEARINGS 

                                   ON 

                   NATIONAL DEFENSE AUTHORIZATION ACT 

                          FOR FISCAL YEAR 2006 

                                  AND 

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS 

                               BEFORE THE 

                      COMMITTEE ON ARMED SERVICES 

                        HOUSE OF REPRESENTATIVES 

                       ONE HUNDRED NINTH CONGRESS 

                             FIRST SESSION 

                               __________ 

                         FULL COMMITTEE HEARING 


                                   ON 

                        BUDGET REQUEST FROM U.S. 

                        CENTRAL COMMAND AND U.S. 

                       SPECIAL OPERATIONS COMMAND 

                               __________ 

                             HEARING HELD 
                             MARCH 2, 2005 

                                     
                   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                     U.S. GOVERNMENT PRINTING OFFICE

24-302 PDF                 WASHINGTON DC:  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001
                                     

























                   HOUSE COMMITTEE ON ARMED SERVICES
                       One Hundred Ninth Congress

                  DUNCAN HUNTER, California, Chairman
CURT WELDON, Pennsylvania            IKE SKELTON, Missouri
JOEL HEFLEY, Colorado                JOHN SPRATT, South Carolina
JIM SAXTON, New Jersey               SOLOMON P. ORTIZ, Texas
JOHN M. McHUGH, New York             LANE EVANS, Illinois
TERRY EVERETT, Alabama               GENE TAYLOR, Mississippi
ROSCOE G. BARTLETT, Maryland         NEIL ABERCROMBIE, Hawaii
HOWARD P. ``BUCK'' McKEON,           MARTY MEEHAN, Massachusetts
    California                       SILVESTRE REYES, Texas
MAC THORNBERRY, Texas                VIC SNYDER, Arkansas
JOHN N. HOSTETTLER, Indiana          ADAM SMITH, Washington
WALTER B. JONES, North Carolina      LORETTA SANCHEZ, California
JIM RYUN, Kansas                     MIKE McINTYRE, North Carolina
JIM GIBBONS, Nevada                  ELLEN O. TAUSCHER, California
ROBIN HAYES, North Carolina          ROBERT A. BRADY, Pennsylvania
KEN CALVERT, California              ROBERT ANDREWS, New Jersey
ROB SIMMONS, Connecticut             SUSAN A. DAVIS, California
JO ANN DAVIS, Virginia               JAMES R. LANGEVIN, Rhode Island
W. TODD AKIN, Missouri               STEVE ISRAEL, New York
J. RANDY FORBES, Virginia            RICK LARSEN, Washington
JEFF MILLER, Florida                 JIM COOPER, Tennessee
JOE WILSON, South Carolina           JIM MARSHALL, Georgia
FRANK A. LoBIONDO, New Jersey        KENDRICK B. MEEK, Florida
JEB BRADLEY, New Hampshire           MADELEINE Z. BORDALLO, Guam
MICHAEL TURNER, Ohio                 TIM RYAN, Ohio
JOHN KLINE, Minnesota                MARK UDALL, Colorado
CANDICE S. MILLER, Michigan          G.K. BUTTERFIELD, North Carolina
MIKE ROGERS, Alabama                 CYNTHIA McKINNEY, Georgia
TRENT FRANKS, Arizona                DAN BOREN, Oklahoma
BILL SHUSTER, Pennsylvania
THELMA DRAKE, Virginia
JOE SCHWARZ, Michigan
CATHY McMORRIS, Washington
MICHAEL CONAWAY, Texas
GEOFF DAVIS, Kentucky
                   Robert L. Simmons, Staff Director
                        Eric R. Sterner, Counsel
                       Jeffery A. Green, Counsel
                         Jordan Redmond, Intern




















                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2005

                                                                   Page

Hearing:

Wednesday, March 2, 2005, Fiscal Year 2006 National Defense 
  Authorization Act--Budget Request from U.S. Central Command and 
  U.S. Special Operations Command................................     1

Appendix:

Wednesday, March 2, 2005.........................................    57

                        WEDNESDAY, MARCH 2, 2005
 FISCAL YEAR 2006, NATIONAL DEFENSE AUTHORIZATION ACT--BUDGET REQUEST 
     FROM U.S. CENTRAL COMMAND AND U.S. SPECIAL OPERATIONS COMMAND
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Hunter, Hon. Duncan, a Representative from California, Chairman, 
  Committee on Armed Services....................................     1
Skelton, Hon. Ike, a Representative from Missouri, Ranking 
  Member, Committee on Armed Services............................     2

                               WITNESSES

Abizaid, Gen. John P., Combatant Commander, U.S. Central Command, 
  U.S. Army......................................................     5
Brown, Gen. Bryan D., Combatant Commander, U.S. Special 
  Operations Command, U.S. Army..................................     7

                                APPENDIX

Prepared Statements:
    Abizaid, Gen. John P.........................................    61
    Brown, Gen. Bryan D..........................................   116

Documents Submitted for the Record:
    Strategic Communications Briefing............................   137

Questions and Answers Submitted for the Record:
    Mr. Hostettler...............................................   165
    Mr. Ryan.....................................................   168
    Mr. Ryun.....................................................   167
    Mr. Skelton..................................................   165
    Mr. Taylor...................................................   165
    Mr. Turner...................................................   167
 FISCAL YEAR 2006, NATIONAL DEFENSE AUTHORIZATION ACT--BUDGET REQUEST 
     FROM U.S. CENTRAL COMMAND AND U.S. SPECIAL OPERATIONS COMMAND

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                          Washington, DC, Wednesday, March 2, 2005.
    The committee met, pursuant to call, at 10:09 a.m., in room 
2118, Rayburn House Office Building, Hon. Duncan Hunter 
(chairman of the committee) presiding.

OPENING STATEMENT OF HON. DUNCAN HUNTER, A REPRESENTATIVE FROM 
       CALIFORNIA, CHAIRMAN, COMMITTEE ON ARMED SERVICES

    The Chairman.The hearing will come to order.
    This morning the committee continues its review of the 
President's fiscal year 2006 budget request. And although we 
have not finished with all the services, we are going to start 
hearing from the combatant commanders.
    And today we are combining Central Command and Special 
Operations Command because they lie at the center of the Global 
War on Terrorism. And our witnesses today are General John 
Abizaid, United States Army, Commander, U.S. Central Command 
(CENTCOM); and General Bryan Brown, United States Army, 
Commander, U.S. Special Operations Command (SOCOM).
    And, gentlemen, I am going to forego any lengthy statement 
because I think we understand how critical your leadership role 
is in the ongoing war against terror, and specifically the war-
fighting theaters in Afghanistan and Iraq. We are going to have 
lots of questions, and we are going to try to ensure that all 
of our members have a chance to ask questions. And so we will 
go to you very quickly.
    Before we did that, I wanted to mention to my colleagues 
that we are all aware that our great former colleague, a 
wonderful member of this committee, Tillie Fowler, has had a 
stroke, that we are all aware of. And I can simply tell the 
committee that we are awaiting news that will update Tillie's 
situation. And so we do not have a definitive report at this 
time; at least I do not have one. But she is in our prayers. 
And Buck, her husband, a great guy, wonderful guy, and her 
daughters, Elizabeth and Tillie, are with her right now. And we 
want the family to know that we are thinking of Tillie.
    And she was a wonderful member of this committee, a 
wonderful leader for our country. And she, along with several 
of our other great defense leaders, headed up in recent times a 
panel on issues in the war-fighting theaters. It was very, very 
important to us. She undertook many important legislative 
initiatives as a member of this committee and as a member of 
the House leadership.
    And so our prayers are with Tillie and with Buck and 
Elizabeth and little Tillie.
    And so, at this time, let me go to the Ranking Member, the 
gentleman from Missouri, Mr. Skelton, and then we will go right 
to our witnesses. The gentleman is recognized.

STATEMENT OF HON. IKE SKELTON, A REPRESENTATIVE FROM MISSOURI, 
          RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. Skelton. Mr. Chairman, thank you. Let me join you in 
your comments about Tillie Fowler. She was an excellent member 
of this committee, a good friend through the years, and she 
did, even after she left, she stayed in touch quite well. And 
as you mentioned, our thoughts and our prayers are truly with 
her, as well as her family. She is a lovely lady.
    Let me join you, Mr. Chairman, in welcoming General 
Abizaid, General Brown.
    I thank both of you, as we begin, for the men and women 
that you lead. Perhaps more than any combatant commands, the 
troops who serve in your commands really are at the pointy edge 
of the spear. Every day they uphold the highest standards of 
service, professionalism, courage. We are grateful for the 
extraordinary sacrifices that they and their families are 
making. We commend them for their service.
    General Abizaid, I do not think it is an understatement to 
say that you have the most challenging single area of 
responsibility of a combatant commander in many, many decades. 
A look at the map shows ongoing hostilities in Iraq and 
Afghanistan, a brewing cauldron in Iran, and pockets of 
instability from the gulf to the Horn of Africa.
    And, General Brown, your highly trained special operations 
forces are being asked to take on more and more missions as 
time goes by.
    As we approach the two-year mark since the commencement of 
the Operation Iraqi Freedom, it is a time to reflect upon what 
is going well and what we still need to accomplish. Certainly 
there have been successes, and I commend both of you for your 
contributions.
    But I want to focus on what we still need to do in order to 
achieve success in Iraq.
    Before I do, let me say that we ask questions in this room 
on behalf of those we represent. Specifically, Article I, 
Section 8 of the Constitution gives us the responsibility to 
raise and support armies and provide and maintain a navy.
    In pursuit of that constitutional responsibility, we must 
conduct oversight. Simply put, we ask questions.
    I used to be a country lawyer before coming to Congress, 
and I talk to a lot of folks back home. Their questions are 
straightforward, but they are pretty important.
    What does winning mean in Iraq?
    How will we know when we have won and when we can leave, 
especially when, for every insurgent we kill, there seems to be 
another to take his place?
    What are the signs along the road that let you know we are 
making progress? Are we trying to win more Iraqi hearts and 
minds, and if so, how?
    Seventy five billion dollars is a lot of money to continue 
the war. What exactly will this money buy within your commands?
    When will the Iraqis be ready to take over their own 
security? When will they be able to sustain their own forces?
    These are tough questions, and I know a lot of them do not 
have simple answers, but they are important questions that 
should be held together by a unified strategy. And I understand 
that General Casey's campaign plan has some detail on how to 
answer many of these questions and is periodically updating it 
to reflect the new realities.
    We needed a detailed campaign plan that brought together 
the military, reconstruction and political tasks for the 
development of Iraq in those first few critical months after 
Saddam fell. And needless to say, I am disappointed as we did 
not have an adequate one then, but I am anxious to hear about 
the evolution of one now.
    In particular, we know that the readiness of the Iraqi 
security forces to provide Iraq's security will be critical to 
our success. Many in the Administration have said that we 
cannot put a timetable on our withdrawal, and I have not argued 
for a fixed deadline for removing our troops. But we must have 
goals that Iraqi forces can reach and attain. And how are you 
measuring the readiness of the Iraqi units? How do we measure 
the progress of Iraqi units if there are no goals to reach a 
certain level of capability by a certain date?
    Our staff was told in briefings at the Joint Staff and the 
Comptroller's office that the money requested in the 
supplemental would be the last money that would be needed for 
the Iraqi security forces, including funds for their own combat 
support capability. Is this true? If so, should people at home 
see a connection between the time and the money and how it is 
spent and the capability of these forces?
    I ask these questions on Iraq because, gentlemen, I wish us 
to succeed. I want us to succeed because the stakes are so 
very, very high, not only there, but throughout the region. The 
eyes of the world are watching, and many may not wait to act.
    Already, our European allies are actively engaged in trying 
to deal with Iran's nuclear weapons program. It looks like our 
Administration may join them in this effort. I applaud that. We 
must lead from the front with diplomacy so that we do not have 
to lead with our military in the end.
    We must also succeed in the Global War on Terror, as the 
stakes there are so high. Without question, the sustained 
pursuit and defeat of the al Qaeda network protects our 
freedom.
    Yet, I must also questions about the use of one of our 
premier capabilities to combat terror: the special operations 
forces.
    Even as individuals, Special Operation Forces (SOF) 
personnel excel and perform admirably--and they do, with valor 
and honor.
    Recent reports bring into question the use and 
accountability of special operation assets, resources and 
personnel. Taken together, reports portray a Defense Department 
determined to utilize Special Operations Forces personnel 
absent adequate guidelines, accountability or proper 
coordination with other parts of our government.
    The most recent article suggests the Department hopes to 
receive approval from the Department of special operation 
personnel into foreign nations without the knowledge of 
American ambassadors in residence.
    An early article suggests that the Department is intent on 
creating an in-house human intelligence capability in support 
of SOCOM activities, without the knowledge of congressional 
oversight committees, General Brown.
    Again, I ask, is this true? Is any of it true? These 
questions have been posed by my constituents at home, and 
indeed been posed by the constituents many on this committee. 
And while my rural roots and instinct tell me that these 
articles are perhaps misleading, if not inaccurate--and I hope 
they are--I still have the responsibility to inquire, to 
pursue, in pursuit of my duties.
    Gentlemen, thank you for your service. We appreciate it 
more than we can say. Thank you for being with us.
    The Chairman. I thank the gentlemen. And before we proceed, 
the gentleman from Pennsylvania, the vice chairman of the 
committee, Mr. Weldon, has an introduction he would like to 
make to the committee.
    Mr. Weldon. Thank you, Mr. Chairman and distinguished 
members.
    Many of you have traveled to Russia over the period of 
years for various trips to interact with the Russian military 
leaders. One of our members, Trent Franks, was with us on a 
trip to Beslan and gave a prayer at that site of the terrible 
tragedy at the school, two weeks after it happened.
    Today, we are pleased to welcome one of Vladimir Putin's 
closest advisers on homeland security issues. He is the 
Chairman in the Parliament, the Duma, state Duma, of the 
security committee. He is a retired general in the military and 
is making his first visit to the U.S. to talk about joint 
Russian-American homeland security cooperation.
    So I would ask my colleagues and friends on both sides to 
join us in welcoming Chairman Vladimir Vasiliev. Thank you.
    [Applause.]
    The Chairman. I thank the gentlemen. And, Mr. Chairman, 
good to have you with us. Well, gentlemen, thank you for being 
with us today. Obviously, you are in critical leadership roles 
and the focus of the Nation is on your areas of operation, both 
operationally and geographically.
    The elections were remarkable, and I think it is very clear 
that those elections came about, were carried on the shoulders 
of America's fighting forces, and you have a lot to be proud 
of. And everyone, right down to the squad and special 
operations team level, has a lot to be proud of in terms of 
that exercise in representative government that was carried out 
because of the Americans.
    So thank you. You obviously have enormous challenges. And I 
think at the top of all of our lists, in terms of issues that 
must be met, is this threshold issue, and that is the hand-off 
of the security obligation and responsibilities to the Iraqi 
forces, the stand-up of the Iraqi forces.
    I will just tell my colleagues, we want to make sure that 
all members get a chance to ask questions. I am going to forego 
my questions until we get to the end of the session. We are 
going to enforce the five-minute rule.
    And to our witnesses--and I am probably one of the most 
skilled at this--we are able ask five-minute questions, 
sometimes three-and four-part questions, and for two witnesses 
that means maybe eight answers worth of questions, and then we 
leave you 15 minutes to respond. And ultimately that ends up 
inviting mean looks from guys like Mr. Kline, who has waited 
for a long time to ask his question.
    So we are going to do five minutes per member, and that 
means I ask my members to ask one question and give the 
witnesses a chance to answer it.
    And to my witnesses, please wrap up your answer as quickly 
as possible so we can move on to the next Member of Congress.
    I thank all the members for cooperating in making sure that 
everybody gets a fighting chance to ask a question and get a 
response.
    And, with that, I am going to forego my question until we 
get to the end of this thing.
    So we are going to start. When we start out, I am going to 
go--and I want to lay this out before you gentleman give you 
opening statement--I am going to yield my first question to the 
gentleman very front row, Geoff Davis, who has a good military 
background.
    So, Geoff, you be ready. You are going to be first out of 
the box. Do not sleep.
    And he will have, I am sure, have some very thorough 
questions for you.
    So thanks for being with us. Appreciate you. And, General 
Abizaid, how is it going?

 STATEMENT OF GEN. JOHN P. ABIZAID, COMBATANT COMMANDER, U.S. 
                   CENTRAL COMMAND, U.S. ARMY

    General Abizaid. Mr. Chairman, it is going well. And I 
thank you for the opportunity to appear before the committee. I 
have a very short statement I would like to make.
    Chairman Hunter, Representative Skelton, members of the 
committee, thanks for the opportunity to be here today. Most 
importantly, thanks for your support of the young men and women 
in the field. They cannot be successful without your help.
    I am also honored today to be here with my colleague, Doug 
Brown. His forces that he provides in our Central Command area 
of operations do absolutely amazing work, and any success that 
we have is attributable to their incredibly high state of 
training, morale and readiness.
    Over 1,500 U.S. soldiers have given their lives in the 
CENTCOM area of operations. Thousands more have been wounded. 
And over one million have served in the region in over three 
years of continuous combat.
    What can we say other than thank you to their families, 
thank you to them, thank you for the tremendous service that 
they have given to the United States of America. We are 
eternally grateful to them, and we are ever mindful of their 
sacrifices.
    We can only look with a certain degree of amazement as to 
what is happening in the CENTCOM region over the past year in 
particular.
    Who would have thought we would be here where we are now, 
where we have had over eight million people vote in 
Afghanistan. A Palestinian election. A Palestinian-Israeli 
process moving forward. Over 8.5 million people in Iraq voting 
for a national assembly. Local elections taken place in Saudi 
Arabia. Lebanese taking to the streets to ask the Syrians to 
leave. Egypt, the President talking about multi-party 
candidates being able to run against him in the next election.
    These things that are happening in the Middle East have 
never happened like this before, and we should be very, very 
mindful of what is happening. And I believe that our forces in 
the region have not only been protecting the United States from 
attack, but has also done much to help the region move forward 
in a direction of moderation that is so important in the 
region's struggle against extremism.
    I am optimistic about future opportunities. I think 2005 
can be a decisive year. We have an opportunity for progress in 
the Middle East peace process.
    We have an opportunity to move forward by having Syrian 
withdrawal from Lebanon, an opportunity to establish greater 
stability in Afghanistan and Iraq, an opportunity for Iraqi and 
Afghan forces to take more and more of the responsibility of 
fighting the insurgencies within their own country, opportunity 
for Pakistan and Saudi Arabia to be helped more in their own 
fights against the extremists that are so important to getting 
the job done in the Middle East.
    But we also have to be mindful of the dangers. There are no 
straight lines in the Middle East. There are ongoing political 
processes all over the region, and all of these can lead to 
more violence.
    There is a prospect for unpredictable actions from Iran and 
Syria. There is possible instability that can result as a 
result of what is happening between Lebanon and Syria.
    The extremist enemy that we face throughout the region will 
not surrender. They will not move away. They will continue 
their attacks.
    And we need to understand that this battle between 
moderation and extremism in the region is one that the people 
of the region have chosen to fight, and they cannot win it 
without our help.
    The year ahead will require patience. We must continue our 
military operations against the terrorists and insurgents. We 
must help friends in the region build military capacity to 
defeat the extremists. And we have to ensure that as we move 
forward in the region, we harness not only all power within our 
own national capabilities, economic, diplomatic and political, 
but we also seek greater opportunity for the international 
community to participate.
    Mr. Chairman, rather than going on, I yield to your 
questions. And again, I appreciate the opportunity to be here.
    [The prepared statement of General Abizaid can be found in 
the Appendix on page 61.]
    The Chairman. Thank you very much, General. General Brown, 
good morning.

  STATEMENT OF GEN. BRYAN D. BROWN, COMBATANT COMMANDER, U.S. 
             SPECIAL OPERATIONS COMMAND, U.S. ARMY

    General Brown. Good morning. Mr. Chairman, Congressman 
Skelton, distinguished Members of the Congress, it is an honor 
to be here before the committee today to report on our posture 
on the Special Operation Forces.
    It is also a privilege to be here with the commander of the 
United States Central Command, a leader for whom I have great 
respect. I enjoy a tremendous working relationship with General 
Abizaid as we aggressively fight the Global War on Terror, as I 
do with all of the combatant commanders.
    I have a prepared statement, Mr. Chairman. If it would be 
all right, I would like to forego it and just enter it for the 
record and go directly to answer Mr. Skelton's first question 
to me this morning.
    The Chairman. I think you get the prize, General. Is that 
it? [Laughter.]
    General Brown. Sir.
    The Chairman. Very good. That is exactly what we need.
    General Brown. Mr. Skelton, SOF is accountable. And they 
should be accountable. I am familiar with the press article 
that you were referring to, and I can tell you that interagency 
coordination, specifically when SOF enters into a country, is 
total. It is complete. Every team, every person deploys with an 
approved, fully coordinated deployment order and a country 
clearance, not only from the country team in that country, but 
from the geographic combatant commander in the area of 
responsibility (AOR) that they are going into with that team.
    Interagency coordination is the best it has ever been. It 
could be a lot better. It needs to continue to work at it. And 
we are working very good at it, but it is the best I have seen.
    But I can tell you from that article that SOF has never, 
ever entered a foreign country without full coordination and 
approval of the chief of mission in the country team and the 
geographic combatant commander.
    [The prepared statement of General Brown can be found in 
the Appendix on page 116.]
    The Chairman. Thank you very much, General.
    And once again, we are going to try to make sure everybody 
gets an opportunity to ask a question.
    And the very distinguished gentleman from Kentucky, one of 
our newest members of the committee sitting in front of our 
witnesses here, Mr. Davis, is recognized.
    Mr. Davis of Kentucky. Thank you, Mr. Chairman. And just as 
both of us being former Rangers, I appreciate you making sure I 
did not fall asleep on the watch here.
    I would like to begin by welcoming Colonel Lynch. We served 
as cadets together 25 years ago.
    It is a privilege to have you both before the committee 
today. I have witnessed in both of your careers a tremendous 
transformation that has taken place in the military.
    General Abizaid, you have to be part of the first public 
display of that with your leadership as a Ranger in Grenada.
    It is great to see an army aviator commanding the Special 
Operations Command. That personally means a lot to me, and we 
are grateful for that.
    But as we are facing the challenges that you alluded to in 
your opening statement, many of the questions as well that the 
uninformed public hears from time to time, you are facing 
extremely serious, complex problems in the region.
    And as the Army is going through its process of 
transforming to deal with asymmetric warfare, adopting more and 
more the small wars doctrine, becoming more culturally 
relevant, focusing on changing the force, you are also 
effectively fighting two wars simultaneously.
    And I would appreciate, first General Abizaid and then 
General Brown if you could give a short perspective from the 
SOF community, if you could comment on force levels right now, 
if you feel you have the capability to surge if another threat 
were to emerge, either in the region or at another part of the 
world, in a public and general sense, how you would adapt to 
that. And do you feel that you have currently the level of 
forces necessary to be able to plan for such a contingency?
    General Abizaid. Thank you, Congressman.
    First of all, I believe that when you look at the total 
military power of the United States of America, in the CENTCOM, 
the Central Command area of responsibility, it is very, very 
substantial. We need to look at it in all of its components.
    The air component is unequaled. The naval component is 
unequaled. The special operations component is unequaled. And 
the ground conventional component is adequate for doing the 
tasks at hand and able to deal with other threats that could 
emerge, provided that we can bring in additional capability to 
deal with them.
    So I am satisfied that the levels of United States military 
power in the Central Command region is adequate. I am also 
satisfied that there is no power in the region that can 
challenge our military might. And that is a very important 
statement to make.
    In terms of transformation, we are just starting to see 
some of the new Army designed units, brigades that are coming 
into the field, with the 3rd Infantry Division arrived. And it 
is my impression in looking at them that their design, which is 
not necessarily more in combat power, it is certainly more in 
reconnaissance power.
    And in this particular campaign that we are fighting, the 
reconnaissance power adds to the overall intelligence 
capability. It should make our precision targeting capability 
better. And so, I am very excited about the direction in which 
the Army is moving in relation to improving this capability in 
their units.
    General Brown. Sir, I think special operations is meeting 
all the requirements that General Abizaid has for us right now. 
Our force structure in the CENTCOM AOR I think is doing a good 
job, and it is the appropriate level of force structure.
    It does not mean we are without stress. We are stressing 
the force to continue operating at the level we are operating 
at.
    When I testified last year, we had the biggest deployment 
of special operations in history. We still are. We are about 
6,100 people deployed around the world today. For us, that is a 
large portion of our force deployed.
    So we have some stress points. Our Green Berets, our SEALs 
are deployed at a pretty high OPSTEMPO right now. Our combat 
controllers. Our civil affairs is probably our biggest issue 
right now.
    Twenty-six of those battalions are in the Army Reserve, and 
we are working through some answers to do that, to fix that. 
And by the end of the year, about 90 percent of my 
psychological operation (PSYOPS) forces that are in the 
reserves will have deployed into General Abizaid's AOR. So we 
have some stress points.
    What we are doing about it is, the good news is, that we 
are growing. Special operations forces are growing. We will 
grow about 1,405 spaces this year. We will grow 500 Green 
Berets over the next couple years.
    We are already in the process of growing. One of the things 
we have done is put a lot of money and energy into our schools 
so that we would then have the wherewithal to allow the force 
to grow without cutting the standard, which we think is pretty 
important.
    So I would tell you our force levels today are probably not 
where they should be, but we believe they will be as we 
continue to grow. We have added 1,300 civil affairs people over 
the last 3 years.
    So in the CENTCOM AOR, I think our force levels are good. I 
think we are doing what we are supposed to do over there. And I 
think we can sustain it.
    We are sustaining it by managing the forces, quite frankly, 
that would be doing things in other AORs around the world. We 
are having to very carefully manage who does joint combined 
exercise training in another AOR to move it into this, into 
John's AOR, so that we get some rotation on our forces.
    And what that means, quite frankly, is, as you know, all of 
our forces, our special operating forces, particularly the 
Green Berets, have to have a language capability. You cannot 
graduate from the school without a language capability. And so 
you can be a great shooter and you can do a thousand pushups, 
but you have to be able to speak a foreign language before you 
graduate.
    So if you went in and talked to some of the special forces 
guys today in the CENTCOM AOR, they may be speaking Spanish. 
And that is because we are having to rotate our forces through 
there.
    But we are taking care of it. We have a good plan to grow 
in the future. And we have the authorities to grow. We are 
adding two SEAL team equivalent. I will not go into the great 
details about how the number of aircraft, 10 C-130's, four AC-
130 gunships, but SOF is on an upward scale, growing to where 
we need to be.
    Mr. Davis of Kentucky. Great. Thank you, gentlemen. Thank 
you, Mr. Chairman.
    The Chairman. I thank the gentleman from Kentucky, and I 
thank him for the military expertise he brings to the 
committee. And the gentleman from Missouri, Mr. Skelton.
    Mr. Skelton. Mr. Chairman, thank you. General Brown, I will 
have a question regarding your force levels with you a bit 
later, so let me just take up my few moments, if I may, asking 
General Abizaid.
    Every one in this room and, I think, every American joins 
with you in wanting success in Iraq. Second place does not 
count there. The possibility of failure there, we do not even 
want to think about, because it could very well, as you know, 
be a snake pit for many, many evils.
    So, you know, I hate to even turn the news on in the 
morning when I hear the deaths, more recently of Iraqi deaths, 
in addition to American deaths.
    And we all know that success will depend upon the Iraqi 
forces being in charge of their own country eventually.
    So my two questions of you, General: How do we measure 
success in Iraq? And where are the markers that you have set 
out with General Casey for the commanders so that you know you 
are making progress toward the ultimate goal?
    Measure of success and your goal for us, would you please, 
General?
    General Abizaid. I thank you, Congressman Skelton.
    The most important term of military success that we have to 
measure and we must be very mindful of is the progress of Iraqi 
security forces, and it is the ability of Iraqi security forces 
to take the lead in the counterinsurgency fight.
    There are three fights that are going on in Iraq right now: 
there is the counterterrorist fight, there is the 
counterinsurgency fight, and there is the fight for stability.
    The fight that the Iraqis need to take the lead in as soon 
as possible and that we are working very hard to make sure that 
they are capable of doing as soon as possible is the one that 
takes the most time, resources, and energy, and it is the 
counterinsurgency fight.
    As far as markers on the road to success for Iraq, I think 
the single most important thing, Congressman, is that we have a 
political process that continues to move forward, shielded by 
coalition military forces and Iraqi military forces that 
continues to move toward a more representative Iraqi 
government.
    And if you look at what is ahead of us in 2005, the most 
important thing we have to do is to protect the political 
process. Some people think, well, we got through the elections; 
getting through the elections means that the political process 
will continue to move in a positive direction.
    But the truth of the matter is that the political process 
is just beginning.
    Right now, there is a debate as to who is going to be prime 
minister. They have to form a government. They have to name 
ministries. Then they have to seat the National Assembly. Then 
they have to write the constitution. Then they have to have a 
referendum on the constitution. And then there is going to be 
another national election. And all of this is going to happen 
between now and December.
    And while this happens, we have to figure out between us 
and the Iraqis how to get Iraqi security forces in the lead on 
counterinsurgency operations.
    Clearly, training and equipping Iraqi security forces is 
one of the key metrics we look at. And I know you know this, 
but I would ask the committee to understand that the metric of 
the numbers can be misleading.
    What is important is whether or not the leadership and the 
loyalty of the Iraqi security forces is sufficient enough to 
take on the insurgency and ultimately defeat it without us 
being there.
    It is my opinion, it is General Petraeus' opinion, it is 
General Casey's opinion that while we are on the right track, 
they are not ready to take over all the responsibilities yet.
    But in 2005, we will make the move to transition those 
responsibilities; for example, giving them territory.
    We have yet to assign territorial boundaries to Iraqi units 
in which to operate. That is very, very important.
    We have started to do it in Baghdad with one brigade, and 
over time we will do it more and more.
    We have had great success in certain units, especially 
those in which our special operations people have been 
embedded. We look to build on that success.
    We have also had some pretty bad failures, and we have 
looked to understand why we have had those failures and look 
for ways to improve leadership in particular.
    There must be in this period of great political process, 
activity, and change, an opportunity for the Iraqi chain of 
command to look to the prime minister, to take orders from an 
Iraqi chain of command, and to respond in an efficient and in a 
complete manner with regard to military requirements in Iraq.
    I believe that the success, then, is twofold that we must 
achieve this year.
    Number one, a legitimate political process must emerge in 
the December elections. That would mean that the Sunni 
community needs to be part of the future.
    And number two, Iraqi security forces must be more and more 
responsible for the conduct of the war, especially the 
counterinsurgency points.
    Mr. Skelton. Mr. Chairman, I will reserve my other 
questions until a later moment.
    The Chairman. I thank the gentleman. The gentleman from 
Colorado, Mr. Hefley.
    Mr. Hefley. Thank you very much, Mr. Chairman. General 
Abizaid, I am concerned that in the supplemental there is a 
considerable amount of money for military construction in Iraq. 
And I am concerned that we certainly want you to have what you 
need there for our troops.
    You need force protection. We want you to have force 
protection, whatever.
    But I am also concerned that we not build a lot of 
permanent facilities because of the message that sends. We are 
not there permanently.
    We do not know how long we are going to be there, but we 
are not there permanently. So we do not create that impression 
that we are planning to stay.
    And second, that we walk away from a lot of brand new 
facilities in a few months or a few years, just walk away from 
them and leave them standing there for their troops to occupy.
    It seems to me that that country is a rich country and can 
build their own facilities that they want.
    So could you tell us a little bit about what you are 
wanting there in terms of military construction and why we are 
doing so much building, or planning to do so much building?
    General Abizaid. Congressman, the building that we are 
doing in Iraq is designed primarily for operational 
requirements for force protection and for quality-of-life for 
our troops.
    I do not regard what we are doing, regardless of the way it 
may be characterized in the various budgetary categorizations, 
I do not regard it as being permanent.
    As a matter of fact, I could not tell you that there is a 
desire either in Iraq or in the United States government for 
permanent bases in Iraq. And I think that that is a level of 
discussion that probably will not emerge until after a new 
Iraqi government is completely formed and functional.
    The bases and the money that we are spending are designed 
to enable the fight for the counterinsurgency to succeed, and 
it is our opinion that over time as forces transition that the 
facilities that we build can be turned over to Iraqi security 
forces.
    The Iraqi government does have its own budget. They have 
designated quite a bit of their own funds for security. Their 
number one budgetary consideration is security.
    But I think it will be some time before the Iraqi security 
institutions are able to get organized, get established, and 
move forward in a way that enables them to defeat the 
insurgency without our help.
    So I believe that we are trying to be as prudent as 
possible. We are looking at areas where we can achieve some 
savings. We are very mindful of the taxpayers' dollars that are 
going into Iraq.
    As a matter of fact, right now we have a joint staff 
logistics team that is looking at how we are supporting 
operations in both Iraq and Kuwait with an eye to getting much 
more efficient in the way that we are doing our logistics 
business. So we are mindful of the need to protect the funding 
that is going in there and do the work right.
    Mr. Hefley. Thank you very much.
    The Chairman. I thank the gentleman. The gentleman from 
Texas, Mr. Ortiz.
    Mr. Ortiz. Thank you, Mr. Chairman. And welcome to our 
committee. We appreciate your service and your leadership.
    One of the things that worry me, and I hope that we are 
looking at a way that we can protect the Iraqi personnel that 
is trying to become police officers or national guards when 
they are trying to recruit or graduate.
    We see that on February 28th a suicide bomber killed 125 
Iraqi recruits who were standing in line at a health center--
125 of them killed. Now today, two more cars targeting Iraqi 
military efforts. One car bomber killed, six Iraqis in the 
Iraqi army. And I could go on and on and on.
    You know, if we do not train them and if they cannot 
recruit, the day will never come when they will be able to lead 
their own country in defending their own country.
    Do we have any strategy to protect the recruits while they 
are trying to recruit into the military, into the police, or 
when they graduate from being targeted and killing them? 
Because I know hundreds of them have been killed trying to do 
the job that they would like to do in defending their country. 
But it seems that every day recruits are killed. They are 
graduating from police school or military school, and they are 
killed. What strategy do we have in place to protect these 
people so that they can take over? Because as long as they are 
being killed, they will never be able to take the position of 
our soldiers in Iraq.
    Maybe you can enlighten me a little bit as to what is being 
done to protect them.
    General Abizaid. Of course, any armed force that develops 
is responsible for its own protection. And I believe that the 
Iraqis are as professional as any force in the Middle East, at 
least in the Arab countries, in terms of understanding what 
they have to do to protect themselves.
    As you know, Congressman, against this terrorist enemy in 
particular, they are very patient, they are very deadly, and 
they are very capable of spotting the weak points and getting 
the bomb to the target. And it is difficult not only for Iraqis 
to defend against, but it is also difficult for Americans to 
defend against.
    On the other hand, when I look at the work that the Iraqi 
security forces did in protecting 5,000 polling sites during 
election day, they showed not only a capacity for organizing 
themselves nationally, but they also very well protected the 
people of their country in being able to exercise the right to 
vote, which was an amazing thing to see in its own right.
    We certainly have been working with the Iraqis in trying to 
increase their level of understanding about force protection. 
We send teams around to inspect. We hold various types of 
training activities. We have provided them, to the extent that 
we can, with force protection materials. And while we have made 
progress, it is obviously true that we need to do better.
    We need to help people protect themselves any way that we 
can. But on the other hand, we also need to understand that 
when a terrorist bomb hits in an area, it was not one that they 
hit in an area that was completely unprotected, but they 
happened to find the flaw in where people were lining up. It 
also happened to be outside a market area, and it was not just 
soldiers that were killed. There was a lot of innocent 
civilians as well.
    So the society is vulnerable to terrorism. It is a 
combination of offensive action and force protection that we 
will help move forward.
    I am very mindful of the fact that more Iraqis have been 
killed since the Iraqi interim government has come to power 
than American soldiers. And we should appreciate their 
willingness to fight for their country. And we understand that 
we are going to have to help them think differently about the 
way to protect themselves under this type of a threat. And we 
are trying to do that.
    Mr. Ortiz. Just one last thing: Do you think that somebody 
is getting inside information, because it appears that they 
know exactly where to go and when to do it?
    General Abizaid. In this particular case, on this 
particular bombing, I believe that it was well-scouted. It 
showed itself to be vulnerable. They figured out that it was 
vulnerable. They figured out how to get the suicide bomb into 
place. And a combination of reconnaissance, a combination of 
safe houses and a combination of the execution of the mission 
on the part of the terrorists showed that they had taken the 
patience necessary to find the target.
    And it also should be noted that reports say that the 
suicide bomber was chained to the car at the time when it was 
exploded.
    Mr. Ortiz. Thank you so much. Thank you, Mr. Chairman.
    The Chairman. I thank the gentleman. The gentleman from New 
Jersey, chairman of the Special Operations Committee, Mr. 
Saxton.
    Mr. Saxton. Thank you very much, Mr. Chairman. General 
Abizaid, General Brown, thank you so much for the leadership 
that you have provided for our folks in the Middle East. And I 
have the opportunity to work on an ongoing basis with General 
Brown and Senior Command Master Chief Martens, who is here 
today, so we have come a long way in this endeavor in the 
Middle East. And thank you and the people that work with your 
for your great effort.
    General Abizaid, I was interested in something you said in 
your opening statement. And that is, not only is the situation 
in Iraq evolving and a government being stood up and a security 
force to support the government being stood up. And General 
Dave Petreaus, of course, is doing a great job in leading that 
security force stand-up effort.
    But you mentioned some other evolutionary events that are 
taking place in the Middle East. And we see it on television. 
And my opinion has always been if we see good news on 
television, it must be great news, because it is unusual for us 
to get much good news over the network.
    And I noticed over the last few days, as many of us have on 
the committee, that there are some changes taking place in 
Lebanon, there are some changes taking place in Egypt. There 
are even some changes taking place underneath, I believe, in 
Iran. The changes that of course have taken place in 
Afghanistan.
    Could you talk a little bit about not only Iraq but the 
region and some of these changes that we seem to be 
experiencing?
    General Abizaid. Yes, Congressman. The region is really in 
a period of tumultuous change. It is really revolutionary 
change. I have studied the region and served in the region an 
awful lot over my career, and I have never seen anything quite 
like this.
    To me, it is unbelievable to think of Lebanese in the 
streets in peaceful demonstration against the Syrians and a 
Lebanese government resigning. It is unthinkable to have the 
people in the region talking about elections, talking about 
representative government, to see the various media outlets 
having an open and somewhat candid discussion about the need 
for reform.
    And it all takes place at a time when the extremist 
ideology, the ideology that is espoused by people like bin 
Laden, Zawahiri and Zarqawi, is in competition with the people 
that want a moderate and better future for their people.
    It is a clear truth to me that the vast majority of people 
in the 27 countries in the Central Command region do not want 
to let the extremists win. They understand the extremists' 
ideology. They know how dangerous it is. It is not one that 
they desire to have be successful.
    They know what Afghanistan looked like under these people. 
They know what the Taliban did, where women were sequestered, 
where executions took place in soccer stadiums, where music was 
banned, where there was no good vision of life other than 
returning to the good old days of the 650s or so.
    And people do not want that; they want a better way 
forward. And all of these activities that are taking place are 
not unlike what we saw in Europe in the 1840s or so, where 
there is just a wave of discussion that is an internal 
discussion that is happening.
    Now, in the middle of all this, we have 225,000 Americans, 
which creates an interesting dynamic on its own. And I would 
only tell you that we do share two things in common with the 
people of the region.
    Number one is we certainly have an ideal for a better 
future and hopes for a better future, and number two is we have 
a common enemy that we want to defeat.
    So I believe that our actions in the region over time make 
a difference, but I also believe that it is not necessary to 
continue the very large numbers of troops and military 
activities in the region over time to allow the people to be 
successful. That can start coming down as they help themselves 
more.
    Mr. Saxton. In the couple of seconds that I have left, I 
would just like to say that it seems to me that everybody being 
human--human beings living in the Middle East being able to 
observe what has happened in Afghanistan, being able to observe 
what has happened governmentally in Iraq sets an example which 
may be fueling some of these changes that are taking place 
elsewhere in the Middle East.
    Would you comment on that?
    General Abizaid. I would say people look to what has 
happened in Afghanistan and what has happened in Iraq and they 
say that this level of participatory government, if it can 
happen in those two countries--one, the most poor in the 
region, and the other coming out of the worst dictatorship in 
the region--then it can happen anywhere.
    Mr. Saxton. Thank you, General.
    The Chairman. I thank the gentleman. The gentleman from 
Mississippi, Mr. Taylor.
    Mr. Taylor. Thank you, Mr. Chairman. And thank both you 
gentlemen for being with us today.
    General Abizaid, on a trip about 6 weeks ago--and I realize 
things change by the day--we were at the embassy in Baghdad and 
apparently our nation has been paying for polling over there.
    One of the poll numbers--and my memory is not perfect, but 
I checked with several of my colleagues--one of the questions 
that was asked is: Do you have a favorable or unfavorable 
opinion of the Americans? And those who were in the room--we 
cannot remember the exact number, but it was substantially over 
half of the Iraqis--had an unfavorable view of Americans. I do 
not say that happily. But I am reporting what I was told.
    The question is, in a counterinsurgency, can you win a 
counterinsurgency when over half of the people have an 
unfavorable view? The second question is, how do you turn that 
around? What steps are we taking to turn that around? Because 
obviously you have to turn it around.
    General Abizaid. Thanks, Congressman Taylor. I think the 
answer to the first part--can you win a counterinsurgency with 
an unfavorable view that the population holds about coalition 
forces?--I think the answer is yes, especially as you 
transition Iraqi security forces to take the lead.
    It is true, I think, if you survey the people in the Middle 
East that years and years of bad press out there has created an 
unfavorable view of the United States, and I think those 
polling results in most of the countries of the Central Command 
area of operations would be somewhat similar--all depends.
    But I would also say that people in the Middle East respect 
what we are doing and respect the opportunities that have been 
provided to the Iraqis and know that it would not have happened 
without us.
    I believe that the counterinsurgency fight is dependent 
upon not only having successful military operations, but also 
convincing people that they are going to have a better future.
    And as long as they know that the better future is within 
the Iraqi context and not within the American context, I 
believe they will fight against the insurgency and they will 
not allow it to be victorious.
    Mr. Taylor. If I may, General, I had asked the same 
question I think a year ago September and the number then was 
80 percent favorable. So it is a rather--politically speaking, 
a rather dramatic shift in the wrong direction.
    My question was what steps can we take, what steps are we 
taking as a nation to turn that around? Because I think it is 
of great importance that that somehow gets turned around.
    General Abizaid. Well, I think one of the most important 
steps that we can take, Congressman, is staying the course in 
Iraq to allow Iraq to be successful in the political process 
that it is undergoing and to be on the road to defeating the 
insurgency and the terrorists that they are facing there.
    And I think there is a classified CIA report that General 
Casey told me about a couple of days ago that showed a marked 
change in the favorable/unfavorable rating in terms of the 
Iraqi people as a result of the elections.
    So with your permission, I will endeavor to get that to 
you.
    Mr. Taylor. Thank you very much. Thank you, Mr. Chairman.
    Mr. Bartlett. Mr. Chairman----
    The Chairman. I thank the gentleman.
    Mr. Bartlett. Can I bank that minute that I have left for a 
future hearing?
    The Chairman. Absolutely.
    Mr. Bartlett. Okay.
    The Chairman. The gentleman from Maryland, Mr. Bartlett, 
has graciously yielded his time to the gentleman from Michigan, 
Mr. Schwarz. Mr. Schwarz, that $20 you slipped Roscoe worked. 
[Laughter.]
    And you have his time.
    Dr. Schwarz. Apparently so, Mr. Chairman.
    I would like to thank the gentleman from Maryland.
    And thank you, Mr. Chairman, for yielding your time.
    This question I believe is more properly addressed to 
General Brown, although, General Abizaid, I expect both of you 
are very knowledgeable about it.
    It would be a concern, I think, to most people that despite 
the fact we have done so well in starting to democratize a 
country like Afghanistan, which has never been democratized 
before in its entire history, that its biggest cash crop and 
its biggest export is opium alkaloid. And I do not believe--I 
think most Americans do not believe you can build a country or 
an economy on that sort of an export.
    I would like to know--and perhaps it is not appropriate for 
this hearing, and maybe we would have to have a closed hearing 
on this--but in general what special ops is doing and perhaps, 
General Abizaid, what CENTCOM is doing to try to disabuse our 
Afghani friends from the cultivation of opium poppies and to 
move on to something else, understanding that this is something 
that is inherent in their culture, but nevertheless should be 
unacceptable to us as the democratizers of that country.
    And if you would both comment on that I would be most 
appreciate, General Brown perhaps.
    General Brown. I think you are right, Congressman.
    The narcotics problem is a big problem over there. I do not 
think they intend to build their government based on the 
narcotics problem.
    From a tactical, special operations point of view, we are 
operating in small teams out in the outer lands. As we come 
upon drugs, we report it. We destroy it where it should be 
destroyed and where we have that capability. We destroy the 
drug equipment that they are using to do--we train Afghani 
forces to do counternarcotics missions.
    At a higher level, we contribute with our psychological 
operations forces to the information campaign that is run to 
disavow them of the drug culture.
    So from a tactical point of view, that is where we--the 
special operations forces contribute.
    General Abizaid. Congressman, I would add that there is no 
doubt that we have to be very concerned about Afghanistan and 
poppy cultivation and the drug trade.
    If, in 2004, our primary military focus was 
counterterrorism, counterinsurgency, countermilitia, I think 
that in 2005, while we will never have the lead because of the 
laws that you have passed, counterdrug needs to be up on the 
overall strategy list for Afghanistan for 2005.
    We provide a supporting role within capabilities. We 
continue our military operations against the Taliban and al 
Qaeda that we find in the region.
    And I have personally talked to President Karzai on 
numerous occasions about the need to move forward.
    You know that in the Bonn Conference process the U.K. was 
given counternarcotics international lead, and you also know 
that within our own interagency that it does not fall to the 
Department of Defense to be in the lead on counternarcotics 
operations.
    All that having been said, all of us need to be very 
concerned about where the narcotics trade is heading.
    We need to work with President Karzai. He has, over the 
past three months, energized his own small, newly beginning 
counternarcotics forces to go out and seize, I think, it is 
something like 64,000 pounds of narcotics.
    And so, he is committed to it. He convened the ``loya 
jirga,'' a group of notables, to talk about it.
    It will be difficult to wean the Nation off of it, but what 
we do not want to do is adopt a program that is going to send 
the country back into insurgency.
    We have to have a smart, well-organized strategy that does 
not penalize the poor farmer who has no other choice. We have 
to have some sort of an alternative livelihood program, in 
addition to the other activities that the law enforcement 
agencies will take.
    And so, 2005, we have to be very careful about moving 
forward in the right direction in this regard.
    Dr. Schwarz. Thank you very much, Generals. Thank you, Mr. 
Bartlett. And thank you, Mr. Chairman.
    The Chairman. I appreciate the gentleman. The gentleman 
from Hawaii, Mr. Abercrombie.
    Mr. Abercrombie. Thank you, Mr. Chairman. General Abizaid, 
next year will be 20 years since the publication of this book 
called ``The Army and Vietnam'' by now-Major Andrew 
Krepinevich, Jr. I am going to assume for conversation's sake 
you are familiar with it.
    Page 10 of the book, it talks about the--following on the 
Army concept about taking on insurgencies, it talks about 
resource allocation and then goes on under the title of 
``Guerrillas: How to Beat Them''--I will not go into all of it, 
but ``the way to destroy an insurgent is attack him at the 
source of his strength, the population.''
    He goes on to talk about counterinsurgency, the necessity 
of being able to handle initiative against the guerrillas with 
a--even paramilitary forces--assertion of government control 
over the population, winning itself, winning its support, the 
forces having to be ground mobile, able to patrol intensively 
in and around population areas.
    They say--let me quote it directly--``While it is a 
relatively easy matter for government forces to drive guerrilla 
bands away from a given area, it is far more difficult for the 
military to work hand in hand with local police and 
paramilitary forces over a prolonged period to complete the 
destruction of insurgent forces that have mixed with the 
population.''
    Yet that is exactly what must be done.
    Without quoting further from it, it goes to--and the entire 
doctrine outlined here, and history outlined here, goes to what 
you termed the transitioning of responsibility: training, 
equipping, leadership of the Iraqi forces and whether they are 
sufficient or not.
    Now, this is the third year of transitioning. The Chairman 
and I happened to be in Baghdad the day that we made one 
transition from General Garner to Ambassador Bremer, and the 
discussion that day was exactly the discussion we are having 
today.
    This is the third year of transitioning, and yet as far as 
I can tell, the transitioning is not taking place despite the 
optimistic tenor of your testimony.
    For example, is it or is it not true that the peshmerga, 
essentially the Kurdish fighters, outnumber the Iraqi forces 
that you have referred to today to the tune of about between 
85,000 and 95,000 to approximately, according to your briefing 
this week, the Iraq Weekly Status Report, 57,658 Ministry of 
Defense forces?
    Do the Kurdish ``peshmerga'' fighters now outnumber them 
about 85,000 to 95,000 to approximately 57,000?
    General Abizaid. Of course, Congressman, it all comes into 
the way that you look at how the ``peshmerga'' have been 
organized.
    Some of the ``peshmerga'' units have become Iraqi national 
guard units. Some of the ``peshmerga'' units have worked for 
the border enforcement organization.
    And so----
    Mr. Abercrombie. Well, let me ask you then, General, how 
many of the 57,000 Iraqi troops consist of ``peshmerga'' units?
    General Abizaid. Well, I do not think that looking at the 
numbers the way that you are looking at them answers your basic 
question about transitioning to Iraqi lead.
    Mr. Abercrombie. Well, let me ask it another way.
    Are you tracking the ethnic makeup of the Iraqi forces?
    General Abizaid. General Petraeus can say how the ethnic 
makeup is working in various locations in the national army.
    Mr. Abercrombie. Well, I am glad to hear that, because I 
have been making inquiries for the past couple weeks and my 
information was that you are not tracking this.
    General Abizaid. I think we can give you a fairly accurate 
appreciation of where units are local units, where units are 
nationally units, and the national units are, of course, 
ethnically mixed.
    Mr. Abercrombie. Are you going to integrate----
    General Abizaid. The question is--if you had let me answer, 
I will answer.
    The question that I understand from you is whether or not 
Iraqis are making progress in transitioning to being able to 
take control of the areas that they need to take control of?
    In 14 out of the 18 provinces, Iraqi security forces 
essentially are in the lead already.
    Mr. Abercrombie. What does that mean?
    General Abizaid. In the four provinces, where the 
insurgency is the most difficult, the four Sunni provinces, 
coalition forces are clearly in the lead.
    Mr. Abercrombie. What does the 14 mean?
    General Abizaid. Fourteen----
    Mr. Abercrombie. Does that mean United States troops are 
not involved there in a leadership role, or is the support role 
minimal?
    General Abizaid. It means that the United States forces are 
very minimal in the areas where the insurgency is actually not 
taking place.
    Mr. Abercrombie. How many of the 57,000 soldiers are--how 
many of them involve what are called these pop-up units, these 
private armies, these paramilitary militias?
    General Abizaid. There is no doubt that there are militias, 
and you talked about one of the militias, the ``peshmerga'' 
militia. And as you remember, during the offensive operations 
into Iraq, the ``peshmerga'' fought with us.
    There is a plan that the Iraqis are working for the 
demobilization and integration of militias that is not unlike 
the plan that exists in Afghanistan for the demobilization and 
integration of militias into the national force.
    Mr. Abercrombie. Is it your contention, then, that the 
``peshmerga'' forces will become the--integrated into the Iraqi 
army and not defend Kurdistan?
    General Abizaid. I think that over time there is no doubt 
that there is no such thing as Kurdistan, there is only Iraq. 
And Iraqi forces will become national forces, and militias will 
be organized at the local level in accordance with the desire--
--
    Mr. Abercrombie. That is the position of the United States 
now as you direct these armies, that there is no Kurdistan?
    The Chairman. Let me ask my colleague if we can--we will 
answer this next one and then if we can move on down the line, 
we will give him a shot at a second round of questioning.
    Go ahead and answer this last one.
    What is your last question, Neil?
    Mr. Abercrombie. Well, if you think--you say there is no 
Kurdistan, so I assume, then, that you mean that it is the 
position of the United States that the ``peshmerga'' will be 
integrated into the Iraqi army.
    And if that is the case, will they be used in the four 
provinces that you have cited? Because over 40 percent of the 
population of Iraq is in those four provinces.
    General Abizaid. Certainly, the decision of how the 
``peshmerga'' will be used is not a decision for the United 
States of America other than for advisement. The Iraqi 
government will make that decision.
    Mr. Abercrombie. So the Iraqi government is going to be 
making decisions about what the future of the United States 
forces are going to be with regard to----
    General Abizaid. You did not say anything about the United 
States forces. You asked me about Kurdish ``peshmerga''. I 
answered your question.
    The Chairman. Let me----
    Mr. Abercrombie. You did not answer the question.
    General Abizaid. Yes, I did.
    Mr. Abercrombie. And you are avoiding the question.
    The Chairman. Mr. Abercrombie----
    Mr. Abercrombie. Avoiding what the responsibility of the 
United States Army is going to be and the United States 
government if these two entities, the ``peshmerga'' and other 
Iraqi forces, are merged and expected to take the lead, let 
alone the responsibility in the 40 percent of the country that 
you say is currently now infested with counterinsurgency.
    The Chairman. Mr. Abercrombie, we are going to have move 
down the line. We will let you extract the answer to that last 
one at the end of the line here.
    Mr. Abercrombie. Thank you, Mr. Chairman.
    The Chairman. The gentleman from North Carolina, Mr. Hayes.
    Mr. Hayes. Thank you, Mr. Chairman. Gentlemen, thank you 
and the troops that serve under you for an incredible job.
    General Brown, we all know that special operators cannot be 
mass produced. It is clearly obvious.
    General Brown. Yes, sir.
    Mr. Hayes. A lot of competing forces that are trying to 
draw these incredibly capable individuals away.
    I know there are a number of efforts being made with some 
progress recently on ways to retain these folks. Could you 
speak to the committee about what is being done, what has 
happened, how the Office of the Secretary of Defense (OSD) has 
responded, and what is the reaction to the special operators in 
the field to these new incentives?
    General Brown. Thank you, Congressman.
    Last year, when I testified, I spoke about the fact that we 
had a drain on our very highly skilled personnel, specifically 
our Green Berets and special forces, our SEAL community, and 
our combat controllers, based on the security environment, 
where there were very lucrative jobs for them to go to.
    We came up with a series of plans to try and keep them, 
make it worthwhile for them to stay in the service.
    Number one thing that keeps somebody in the service is job 
satisfaction. Our folks have great job satisfaction. But there 
is a part B, and that is taking care of your family.
    So what we have come up with, and what the OSD has 
supported us with, and Dr. Chu specifically in helping us get 
this across, is a soft bonus for specific military occupational 
specialties (MOSs) at the 19-year point of service.
    Now, there are some actions that we had that were working 
earlier that were not approved earlier in the time frame of 0 
years to 19. But the one we have, which we are very happy 
about, is at the 19 year of service a Green Beret, a combat 
controller or a SEAL that will sign up for 6 years to stay in 
the force will get a $150,000 bonus lump sum payment.
    That has been very positive so far. We do not know what the 
final outcome will be, if it will help us sustain the force in 
the manner we need to sustain it. But, quite frankly, it 
started on 1 January, and I am told we have already had 112 
people sign up for it, mostly from our Army component.
    So we are looking forward to seeing if this is going to 
help us solve some of our problem to retain our seasoned 
operator.
    Additionally, real quickly, we started a whole series of 
SOF unique education opportunities for our operators. I will 
not go into great detail about what they are, but they include 
online degrees and actually bootstrap programs where they can 
come back and go to college and some other stuff.
    All of this started with a meeting I had in Tampa to meet 
with the spouses of our special operators to get their feedback 
on what we can do to help keep their service member in the 
service.
    Quite frankly, I am encouraged. I think it is a great 
initiative. We have great support out of the OSD to help us do 
the bonus part. And we are looking forward to seeing how it 
pans out. First reports are pretty good, 112 since January 1.
    Mr. Hayes. Sounds like a lot of money, and it is, but I 
think it is a tremendous investment that pays tremendous 
returns, both in terms of rewarding the folks, and incentive 
for folks to stay.
    Just a quick follow-up. I was traveling east recently and 
ran into a planeload of our soldiers, who were traveling west. 
We talked a little bit in the confines of the terminal. And, 
you know, you could thank them a little bit, but it is sort of 
hard. They did not know who we were.
    But kind of wandered back to the plane as they loaded up, 
and wanted to talk to some more of them, and the guy said, 
``Well, here, get on the intercom.''
    So I got on the intercom, not knowing really what to say 
except, ``Men, America, my district and everybody, appreciates 
what you have done. You are fabulous. We love you.''
    The plane just erupted. And it is such a clear indication 
of morale, that people need to know that they appreciate when 
we tell them, and we cannot tell them enough.
    So our thanks through you to them every time you get a 
chance. I know you will. Thanks.
    General Brown. Congressman, thank you very much. And thank 
you for your visits out to the field. And thank you for coming 
to see our special forces troops, specifically at Fort Bragg in 
that area.
    The Chairman. I thank the gentleman. And the gentleman from 
Texas yielded his time to Mr. Abercrombie, so you have 30 
seconds left. So the gentleman from Texas, Mr. Reyes.
    Mr. Reyes. Thank you, Mr. Chairman. And, gentleman, welcome 
to the committee, and thank you for your service.
    As you know, our time is brief when we ask questions, but 
there are two areas, General Abizaid, that I would like for you 
to comment on.
    The first one is, I was curious, a report in this morning's 
newspaper, that in yesterday's testimony you said the size of 
the insurgency was greatly reduced. And so I wanted to get your 
perspective on exactly how you determine that.
    And then the other question, I referred to your written 
statements where on page 43 you say: ``Finally, we must close 
the cultural gap between us and the extremist enemies that we 
face. We must invest far more in the human capital that will 
empower our joint forces to better understand the enemy in the 
years ahead.
    ``During the Cold War, the U.S. military could boast of 
literally tens of thousands of experts on the Soviet Union, the 
Warsaw Pact and the ideology of communism. Today, we are lucky 
to find even a few hundred in our own ranks who know about 
Islam, the Middle East and the ideological forces that fuel 
terrorism.''
    So my question is, as a result of our experience to date in 
Afghanistan and Iraq and in the region, what kinds of training 
activities or courses are you developing or have you developed 
so that as troops continue to rotate into theater they do not 
have to learn the hard way based on the experience that we have 
had to date?
    And what are we doing to make sure that in the future, in a 
case like Latin America, we will not be in the same kind of 
situation as we are today in the Middle East?
    If you could comment on those two, I would appreciate it.
    General Abizaid. Thank you, Congressman.
    The size of the insurgency, of course, is always a matter 
for great speculation and it is always very difficult to come 
to grips with it militarily, and giving numbers never quite 
does it justice, because it changes.
    Sometimes when people feel that there are political 
activities going on that need to be either reinforced or fought 
against, then you have increases or decreases in what is going 
on in the country.
    I think there are three categories that General Casey and I 
try to look at when we try to understand what is happening 
within the Sunni Arab insurgency, which is the most active and 
certainly the most dangerous right now for the future of Iraq.
    The first are the trigger pullers, the people that are 
actually out there fighting day after day that are engaging our 
troops and engaging the Iraqi security forces.
    The second are the supporters, the people that provide safe 
houses, provide ammunition, provide money, provide direct 
support.
    And the third group happens to be the sympathizers. It is 
very, very difficult to say numbers of sympathizers, but it is 
also clear that after the elections, that there was a positive 
impact in that more people were coming forward to tell our 
forces and the Iraqi security forces where the enemy was 
storing equipment, who some of the leaders of the insurgency 
were in particular locations. So that was a good sign.
    But, again, my comments yesterday were really an 
intelligence analysis of the enemy coming forward on election 
day. They enemy stated that it was their most important 
military activity to disrupt the election. And so we assumed 
from that that would put a major effort forward.
    And as we looked at the numbers of attacks that took place, 
where the engagements were, what the numbers of people that 
happened to be, and then did whatever analysis we could, we 
said there were about no more than 3,500 people in the field 
that day.
    Now, that does not mean that that is the size of the 
insurgency, but it does show you, if that is their best shot, 
we need to not overestimate what they are capable of doing.
    And so I think what I concluded from that is the 
multinational forces and the combination of them and the Iraqis 
are not going to be defeated by the insurgents.
    Of course, the insurgents have a long time line. They just 
try to avoid losing. And what really needs to take place is a 
lot of political activity now to take out the political 
underpinnings for the insurgency in the Sunni Arab community.
    With regard to the human capital issue, I very much 
appreciate the fact that you read my posture statement and that 
you found that particular point, because I think it is very, 
very important.
    We will be involved in the Middle East for a long time, and 
the Middle East will be a seat of conflict for a long time. And 
this extremist problem with regard to the extremist ideology 
will be with us for a long time.
    Yet we are always talking past one another in the Middle 
East. Congressman Taylor talked about the unfavorable ratings 
that we receive.
    Well, also in the United States people from the Middle East 
do not receive favorable ratings either.
    And there is this big cultural gap that I believe can be 
crossed much better by training more of our officers 
professionally, in language skill, sending them to universities 
to learn the culture, learn about the religion, and then 
changing our own mentality within our own services so that we 
value that service and not think it is something off to the 
side that is not mainstream.
    In other words, what I am saying is that mainstream line 
officers need to know about the Middle East as much today as we 
used to know about the Soviet Union back in the Cold War.
    There is another side to the human investment necessary, 
and that is to reach out to the Middle East and bring their 
officers forward.
    When I look at Pakistan, for example, we used to have a 
very robust International Military Education and Training 
(IMET), program with them that brought their officers forward 
for training. And then we stopped it for years. And it is 
precisely that group of officers in the middle that are not 
quite sure about this relationship with the United States.
    Now, we are starting it again with the younger officers. 
But this double investment in human capital, I think, on both 
sides of this bridge that we are trying to cross, is very 
important and in the long run is more important to us than 
raising a couple of extra brigades.
    The Chairman. I thank the gentleman. And, Mr. Reyes, how 
many trips have you made now to Afghanistan and Iraq combined?
    Mr. Reyes. Combined, about 14.
    The Chairman. About 14. Mr. Reyes I think has traveled in 
the theater, General Abizaid. In fact, we are working on family 
separation allowance for him for these trips.
    But I want you to know, these members, Democrat and 
Republican, really care about you and about the troops and this 
mission. And almost all of our members have been into theater 
multiple times. I think Mr. Reyes more than anybody else. But I 
think it represents our interest and our commitment.
    So we appreciate you, Mr. Reyes. The gentleman from 
Virginia, Mr. Forbes.
    Mr. Forbes. Thank you, Mr. Chairman. And, Generals, we 
appreciate you being here and the great job that you are doing.
    And, General Abizaid, I have a question that is off of 
Iraq, which I doubt will disappoint you to be able to address. 
But it is still under CENTCOM's area of responsibility. And 
that is that China will soon have a special access to deep 
water ports in Pakistan, according to at least recent media 
reports that we have seen.
    Does this affect our influence in the region? And 
specifically what are the short-and long-term-range 
implications of increased Chinese naval and commercial 
capabilities in the Gulf region? And how will this strengthen 
China's strategic influence with South Asian and Gulf 
countries?
    General Abizaid. Congressman, that is a great question.
    I would just like to thank Congressman Reyes, by the way, 
if you would not mind, for the number of trips that he has made 
out there. You can tell that he knows a lot about what we are 
doing. And I really appreciate his efforts and all of your 
efforts. I have seen many of you over there, and I know General 
Casey has seen even more of you. So thanks for that.
    The question of China in the Middle East and China in the 
region is one of great long-term strategic importance for the 
United States. It is clear to me that the increasing energy 
demands of both China and India will over time probably cause a 
level of competition for resources that are available in the 
Middle East that people need to be thinking about now.
    I am not saying that that competition for resources needs 
to revert into any sort of military clash, but it is to say 
that their developing societies in both China and India, and 
their developing military and technological capabilities make 
it clear that in the long range they are powers to be reckoned 
with.
    China is already a power to be reckoned with in Central 
Asia. And their relationship with Pakistan is well-known.
    My impression of Chinese activities in the region is that 
they are long term. They are strategic. They are built to think 
about the future of how China will increase its trade and its 
influence in the region so that it increases over time.
    And again, I am not saying that they are nefarious. I am 
saying that it is apparent that they are very interested in the 
region, that it is one of strategic importance to them, and 
they have key relationships that they have developed, 
especially with Pakistan, but with other nations. And I think 
we will see ever increasing interest and influence of China in 
the years ahead.
    It is not necessarily increasing influence, though, that 
should lead to conflict. I think China, like the United States, 
is a nation that is interested in the stability of the region, 
because with stability and peace comes peace and prosperity.
    Mr. Forbes. Thank you, General. Thank you, Chairman.
    The Chairman. I thank the gentleman. I thank him for his 
recent trip in that area of operation (AO). And the gentleman 
from Arkansas, Dr. Snyder.
    Dr. Snyder. Thank you, Mr. Chairman. Thank you, gentlemen, 
for being here.
    General Abizaid, I wanted to ask a question about Iran. In 
your written statement, you state that, Iran has ``obvious 
aspirations to acquire nuclear weapons,'' is the way you 
phrased it.
    I want to ask you a question from your personal opinion, 
because I want you to--because I do not think there is any 
right or wrong answer to my question--but I want you to put 
yourself in the position, if you were a military person in the 
Iranian military, a high-ranking officer there. All these 
discussions that we have had on Iran, and I see a lot of the 
things that are written about it, and we are talking about some 
enticements that we are working with Europeans on.
    The topic I do not see that gets much discussion, if you 
were from the Iranian military and defense perspective, where 
is the incentive not to want to acquire nuclear weapons? If you 
could put yourself in the position there, when you look, you 
have Americans on both sides, in Afghanistan and Iraq, with a 
nuclear force, not in those countries, but with nuclear force. 
The Brits are in Iraq with a substantial nuclear force, have 
nuclear weapons. Israel has a nuclear force. Russia, to the 
north, has a nuclear force, just across the border with 
Azerbaijan. The Pakistanis have a nuclear force. The Indians 
have a nuclear force. The Chinese have a nuclear force.
    I mean, it is a very dangerous neighborhood. And when we 
talk about trying to give incentives to Iran not to acquire a 
nuclear force, would you put yourself, from your personal 
perspective in the role as an Iranian military person, how do 
you go to your political leadership and say, ``Here is why we 
can be secure and why we ought to not acquire nuclear weapons, 
from our purely selfish, defensive perspective''?
    General Abizaid. I think if I am an Iranian military 
person, the first thing, like any military person, that you are 
interested in doing is defending your country. And you see a 
very great degree of intellectual effort on the Iranian side to 
discuss how they would deal with a conventional attack by the 
United States. And they always talk about how they need to 
develop an asymmetric capability to deal with our very large 
conventional air and naval power.
    And so, it is surprising to me that I do not see the 
discussion about what it means for them strategically to gain a 
nuclear weapon. If I were a professional that was non-
ideological, I would think it would not be a good idea to 
develop a weapon because it puts you behind the rest of the 
powers. It assumes that all of the powers in the region, not 
the United States but the powers in the region, can accept that 
fact that you will be nuclear armed. And you have to ask the 
question whether or not achieving a nuclear weapon does not 
invite attack by one of the regional powers.
    And so, the question for a military person should be is a 
nuclear-armed Iran more stable or less stable in the regional 
context. And it is my view that it is less stable.
    I think that they have to understand that our long-term 
presence in the region, once stability is achieved in Iraq and 
Afghanistan, is bound to go down, and that offensively, it does 
not appear from our military movements, at least if I were an 
Iranian professional, that we have any designs upon them.
    From a strategic point of view, you look and you see where 
the American flags are, but from a posture point of view, you 
know clearly what is defensive and what is offensive. And our 
posture is not offensively oriented.
    So you are diverting an awful lot of national resources to 
develop a nuclear program that could actually better be put 
into what would pay off in an asymmetric conventional sense for 
defending the country.
    So from a resources point of view as a professional 
military man, I would say, ``I think we are wasting our money 
on this program, and it actually makes life worse for us and 
less stable for us, not better.''
    But I would also tell you, Congressman, that I believe that 
it is not the professional military men that are driving the 
argument, but the ideological politicians.
    Dr. Snyder. One final question, General Abizaid, General 
Brown. I think there was discussion of the C-130J model that 
came up, with your discussions with the Senate, and I think 
about everybody that goes to Iraq, they end up riding around in 
C-130s, and we now have had the problem with the aging force 
and the C-130E models being grounded. It came as a surprise to 
a lot of us when the President's folks proposed cutbacks in the 
C-130J model program. Would you share with us your thoughts 
about the C-130J model as we look ahead to this defense bill 
here?
    General Brown. In Special Operations Command, of course we 
have some C-130J models that are located up at the 193rd in 
Harrisburg, Pennsylvania, our Commando Solo unit. And quite 
frankly, the C-130J model is doing very well up there.
    The rest of our MC-130 fleet is an aging fleet. We are 
getting 10 new C-130's into our fleet. They will not be C-130J 
models. The purpose that we did not set out to get C-130J 
models when we started this initiative was that most of our 
aircraft are very, very highly modified, with terrain 
following/terrain avoidance radar, aircraft survivability 
equipment.
    And quite frankly, we did not want to put another style of 
aircraft in the fleet that would cause us to have unique pilots 
that flew four or five different kinds of airplanes. So we went 
with the standard. I think they are H2 C-130's that we had 
before.
    The C-130Js that we have up in Harrisburg, and I have 
looked at the C-130J, and it is a great aircraft and very, very 
capable.
    I really cannot comment on the budget or that activity that 
went on with regard to the C-130J. I can only say it is a very 
capable aircraft and that when I look at the C-130 fleet in my 
theater of operations, we cannot exist and get our job done 
without the C-130 fleet.
    The Chairman. I thank the gentleman. The gentleman from 
Minnesota, Mr. Kline.
    Mr. Kline. Thank you, Mr. Chairman. And thank you, 
gentlemen, for being here and for your service.
    I want to follow along with Mr. Forbes and talk about 
something besides Iraq. I know that while I was attending 
another hearing that one of my colleagues raised a question 
about the poppies in Afghanistan. So sort of setting that 
aside, I would like to get some of your thoughts about 
Afghanistan from both of you.
    I was just over there about six weeks ago. And I know that 
President Karzai was very much aware of the poppy issue.
    He was also very proud, it seemed to me, of the Afghan 
national army and the progress they had made, the progress in 
getting the warlords to turn in some equipment. And by the way, 
he took great care to ask us to express his thanks to the 
American people for what Americans have done for peace and 
democracy and any hope in Afghanistan.
    And so, I and my colleagues pledged to him that we would 
carry that message forward. And I am trying to keep my pledge 
in that regard everywhere I go.
    But my question to both of you is: How are we doing with 
the Afghan National Army, with training them, with them taking 
over the responsibilities in Afghanistan?
    And then for both of you, I suppose, how are we doing in 
the cooperation with Pakistan in the hunt in that just 
incredibly rugged region that is there between Pakistan and 
Afghanistan?
    Start with either one of you.
    General Brown. How about if I take it from the tactical 
level and then I will let John move up to the strategic level 
in his AOR.
    I spent Christmas Eve with a Special Forces A-team, about 
100 miles north of Kandahar. There was about 20 guys in a 
Special Forces A camp. They have an Afghan company with them 
that they work with every day. The Afghans that I met over 
there, the Afghani army folks were dedicated, trying to learn 
their skills. Were not anywhere near the level of our forces, 
of course, but they were dedicated to trying to be good at what 
they were doing. They were listening. They were doing what our 
Special Forces guys were working with them.
    That whole little area that this Special Forces A-team 
works in, they are doing exactly what you would want a Special 
Forces team doing. They have established a school just south of 
their little A camp, about 135 kids going to it every day. They 
have a great relationship with the local mullahs. They are 
right at a traditional Taliban avenue of movement to the north, 
where they are going out and doing the direct action piece as 
well as all the other pieces.
    So from an Afghan perspective--now, I am talking about one 
A-team, but we have 24 more of those Special Forces A-teams and 
then we have the conventional forces and additionally I have 
some Rangers and other assets over on the ground.
    Quite frankly, I was very, very encouraged what I saw, not 
just from the military, tactical point of view of training 
Afghan army and working with them to be more capable in the 
missions that we wanted them to do, but in the relationship 
that the team had built with the entire area, helping to 
improve the infrastructure, building the schools, running a 
medical clinic, and doing all this with about maybe 20 total 
Americans up there.
    And so, from a tactical point of view, I think it was going 
real well. John.
    General Abizaid. When you look at what is going on in 
Afghanistan with regard to the training of the Afghan National 
Army and their ability to operate throughout the country, it is 
actually going along very well. I am very pleased with the 
progress that we have made at the battalion level.
    But just like in Iraq, the key is to make the chain of 
command work all the way from the lowest private in the Afghan 
army up to the Minister of Defense. And as you know from having 
been out there, the ability of the Minister of Defense to 
command and control his units in the field is pretty slim. And 
so, we have to work on enabling his command and control and 
getting the middle levels of the Afghan National Army stood up.
    Initially our strategy was to just concentrate in the Kabul 
area. And it has only been recently where we have expanded our 
efforts out.
    Now, this also goes into the very important point that I 
think Mr. Abercrombie was trying to get to as well, on militia. 
The militias need to be demobilized. The militias have to be 
reintegrated into society. And the program for disarmament, 
demobilization and reintegration in Afghanistan has gone along 
pretty well. It is internationally supervised. It is funded 
internationally.
    I was recently at a weapons cantonment site in Herat, where 
I was surprised that Ismail Khan's forces have turned in so 
many weapons of excellent capability, et cetera. And this 
process of building the Afghan force, while at the same time 
bringing down the militias, and then also expanding NATO 
influence throughout the country, through ISAF, is one that is 
leading to greater and greater stability.
    To quickly get to your question about Pakistan and the 
activities of the Pakistani army, it is remarkable when you 
think that about a little over a year ago, there were zero 
Pakistani regular army forces in the border provinces of 
Pakistan, specifically North and South Waziristan. Today you 
have over 70,000.
    They have engaged the terrorists. They have attacked the 
terrorists. They are squeezing the al Qaeda senior leadership 
into areas that I think ultimately will pay off, because there 
are only so many places you can go.
    You are absolutely right. It is extremely rugged, extremely 
difficult. You have to have good, precise intelligence.
    But our level of cooperation with Pakistan and their 
importance in this fight against extremism, the broader fight, 
it is just very, very important to maintain the good levels of 
training and capability and cooperation.
    Mr. Kline. Thank you. Mr. Chairman, my time has expired.
    The Chairman. I thank the gentleman. And the gentlelady 
from California, Ms. Sanchez.
    Ms. Sanchez. Thank you, Mr. Chairman. And thank you, 
gentlemen, for being before us today.
    I was in Iraq over the Christmas holiday and had a good 
chance to talk to General Petraeus about the training of the 
Iraqi troops, because obviously that is one of the key 
components of our ability to get that place settled and 
actually to get America pulled out.
    General Abizaid, I have a question for you. Two weeks ago 
when I asked Secretary Rumsfeld to explain why his estimates of 
the current strength of the Iraqi security forces have varied 
so wildly over the past year and a half, first he denied that 
his estimates had been unreliable and later he passed the buck 
by saying that he gets these numbers from General Petraeus. So 
since General Petraeus works for General Casey and you, I was 
hoping you could help the secretary get his story straight.
    Every member of this committee wants General Petraeus and 
the Iraqi army to succeed, but some of us need to get some 
clear metrics on where the mission stands and how you and 
General Petraeus are measuring the numbers and the readiness of 
the Iraqi forces.
    For example, on 16 September 2003, Mr. Rumsfeld said there 
were a total of 56,000 Iraqis under arms in the Army, police, 
border guards and civil defense corps. On 25 October 2003, Mr. 
Wolfowitz said that there were 90,000 Iraqi troops. On 4 
November 2003, Rumsfeld claimed there were over 100,000 
trained. That was a 40 percent increase in a month and a half.
    On 19 November 2003, the DOD news release said that it was 
138,600 Iraqis trained.
    On 23 February 2004, at a daily Pentagon news briefing, Mr. 
Rumsfeld said they had in excess of 210,000 Iraqi security 
forces. In testimony two weeks ago, Mr. Rumsfeld claimed that 
there are now 137,000 Iraqis serving. That is a decrease of 
73,000 in the past year, using Mr. Rumsfeld's own claims. Yet 
he sat here and denied that he is given unreliable estimates.
    So my first question is: Have we actually lost 73,000 Iraqi 
troops to desertion, combat, other causes between February 2004 
and February 2005 or were the numbers wrong?
    And if they were wrong, where was he getting his estimates? 
Were they from your command?
    And what have you done to obtain more reliable estimates so 
that Mr. Rumsfeld does not look so helpless?
    And generally speaking, the Iraqi police are not trained, 
organized or equipped to engage in counterinsurgency warfare. 
So when we discuss the strength of the Iraqi security force as 
a strategy for reducing U.S. forces in Iraq, our focus should 
really be on battle-ready Iraqi army and national guard 
battalions and brigades.
    Using that standard, respected defense analyst Anthony 
Cordesman estimates that there are only 7,000 to 11,000 Iraqi 
troops assigned to battle-ready combat units. Do you agree with 
those estimates? And using that standard, what would be your 
estimate?
    General Abizaid. I certainly have the greatest respect for 
our Secretary of Defense and our other leadership in the 
Department of Defense. They have fought the war honorably, and 
I believe every step of the way they have tried to give answers 
that they believed to be correct.
    The most important thing that I can say--and I know you are 
familiar with it from having visited personally with General 
Petraeus recently--is that there is a well-known and, I 
believe, handed out to the various committees of Congress, 
report that comes out biweekly on the status with Iraqi 
security forces.
    Currently, I think the number is over 140,000 Iraqi 
security forces that have been trained and equipped.
    We have, over time, changed the way that we have counted, 
because we have had a disagreement about whether or not the 
facilities police would be added into the equation or not. And 
we came to the conclusion that they were not really a military 
force. They were a static security guard force and they 
contributed to security, but not to the counterinsurgency or 
the counterterrorist fight, nor did they really add much to the 
policing activities that were done.
    So we have tried to concentrate on police and military 
forces. I also understand that there are plenty of people with 
plenty of different ideas about Iraqi security forces.
    The key issue, I think, that we need to really hone in on 
is whether or not the Iraqi security forces are ready to take 
the lead in the counterinsurgency action in Iraq.
    And the answer is no, not yet. And it is because the 
leadership and the chain of command has not solidified yet, but 
it will.
    They are better now than they were a month ago. And they 
will be better next month. They keep getting better. They get 
stronger.
    Will they be able to take the lead against the insurgents? 
My belief is, as long as the political activity in Iraq takes 
place, they will be able to do that.
    I also believe that the goals that General Petraeus--that I 
know he discussed personally with you--are reasonable and 
attainable. I am pretty clear that all of us understand that we 
are not creating the United States Army; we are creating the 
Iraqi army and that they will be able to defend their country 
from external threats and, over time, win in the insurgency.
    The key for us this year is to transfer more and more 
responsibility to the Iraqis in taking the counterinsurgency 
fight to the enemy, and I am confident we can do that.
    When I look at the military results of the Iraqi armed 
forces in the field during the election period, General Casey, 
myself and General Petraeus are very encouraged by that. None 
of us have ever said that the Iraqi security forces have been 
free of desertion or difficulties in their formative stages any 
more so than we could say that the American forces were free of 
difficulties in any war we fought.
    Ms. Sanchez. I am sorry. My first question, the issue of 
estimates. Were those coming from your command? Do you know 
what happened to the discrepancy of 73,000 over a year?
    General Abizaid. I think I told you it was the facilities 
protection police on the 73,000. We believe that it was not 
reasonable to add that number to the overall counterinsurgency, 
counterterrorists stability equation of the armed forces and 
police.
    Ms. Sanchez. But you believe the police?
    General Abizaid. But those people are out there guarding 
things for the various ministries.
    Ms. Sanchez. Police are also in your estimates, but do they 
really do counterinsurgency?
    General Abizaid. Well, I mean, you know, there are all 
sorts of different levels of counterinsurgency and 
counterterrorist action. The Iraqis have counterterrorist 
forces that fight it directly. They have special police 
commandos that fight it directly.
    The police in the precinct add to stability in the local 
region, but they are not capable of standing up against a 
dedicated, determined insurgent force that would attack them.
    So there are various levels of security provided by the 
forces.
    The most important thing we can do is to get the chain of 
command and the Ministry of Interior and Ministry of Defense 
fighting properly, so they can coordinate all of the various 
levels of activity against the insurgency.
    The Chairman. I thank the gentlelady. The gentleman from 
Texas, Mr. Conaway.
    Mr. Conaway. Thank you, Mr. Chairman. General Brown, thank 
you, and General Abizaid, for being here today. You had 
mentioned earlier in some testimony that you had met with the 
spouses for special ops folks in Florida, in Tampa, I guess. 
And out of that came some suggestions that were implemented.
    If you could flesh that out a little bit for us and also--
and I will ask all my questions, then I will quit--one of the 
comments that was made about the bonus, the sign-on bonus, for 
the 19-year veterans to stay for another 6 years and the size 
of that bonus--help us put that in perspective as to what does 
it take to train a special ops individual, about how long 
apprenticeship does it take to get to they are fully 
operational? What do we have invested in each one of those 
people to make that happen?
    General Brown. Thank you very much for the question.
    First of all, I brought the spouses in of about 20 families 
across our force, because when we talk about special 
operations--I have SEALs; I have Green Berets; I have Combat 
Controllers; I have air crews--but we particularly focused on 
those skills that we were losing, those that were going out of 
the force.
    We brought them in and discussed predictability so that 
they would know when their husbands were deploy and when he 
would come back, the length of deployments. We discussed a full 
range of issues, but quite frankly, mostly we let them do the 
talking and we listened.
    Several of the things they came up with that we thought we 
could implement fairly quickly was the bonus I already talked 
about and then some educational opportunities that are also 
available to the families as well as the service members.
    Today, to become a Green Beret it takes about 14 to 18 
months and the same with our SEALs. To get a qualified guy that 
you can put out in the field up in a small group, operating in 
very, very small groups to do these incredible things we ask 
them to do, it takes about 14 to 18 months.
    Some of the numbers change depending upon what particular 
skill, whether he is a medic, it is a little longer; if he is a 
demo guy, it is a little less; or communicator.
    It takes us about $320,000 just in training costs to train 
that one individual if he is a Green Beret. A SEAL is pretty 
close to the same. A Combat Controller is a little bit less, 
but they are all pretty good just to train in one year.
    That is not counting the fact that he is already getting 
paid. We had to go recruit him and do a whole bunch of other 
stuff. So the benefits of keeping these guys are pretty 
dynamic.
    Once we take that guy and he finishes his language school, 
in special forces, particularly--and we are getting a little 
bit that way in the SEALS and we are moving that way in some of 
our other forces--we put him in one unit where he will get the 
cultural awareness that is required to have the kind of 
cultural awareness skills that we would expect from him.
    So a guy that will go to the 5th Special Forces Group will 
always deploy to General Abizaid's AOR.
    So a guy that you will run into over there has probably 
done eight or nine rotations, knows a lot of the people over 
there, can speak the language well enough to get by.
    So we have a tremendous investment in these guys and so 
that is why the bonus.
    The size of the bonus, quite frankly, sounds pretty 
astounding to me, but the truth is when you look at the 
civilian contracts that these individuals are able to get--
because they are very capable of operating around the world--
they are security specialists, they are handgun, long-gun 
experts, they are out-of-the-box thinkers, and they have a 
language skill--they can sign some pretty big contracts with 
the civilian industry.
    Mr. Conaway. Let me ask--we have a little time left.
    You mentioned that in addition to the bonus, there were 
some other things that you had thought about doing for folks 
from 2 years to 19 that did not implement it. Or is there 
anything in it that you would like to continue to be an 
advocate for that would help?
    I suspect replacing a 10-year veteran is a whole lot easier 
than a 19-year veteran.
    General Brown. No, I think you are exactly right.
    What we did is we turned--the services run the selective 
reenlistment bonus, and so they are all a little different.
    We attempted to standardize those. And then your 
reenlistment bonuses and NCO goes away about the 14-year point.
    So you have a little gap there where, if you are anybody in 
the service, but particularly in S.F. or SEAL or Ranger or a 
combat controller, you are not getting a bonus for a certain 
period of time, waiting for that 19th year to then sign up.
    So we are back working some initiatives to try and draw a 
little bit of that bonus forward so that we can give them some 
sort of sustainment instead of just asking them to hold on 
until the 19-year point.
    Mr. Conaway. Thank you, Mr. Chairman.
    The Chairman. Thank the gentleman. The gentlelady from 
California, Ms. Davis.
    Ms. Davis of California. Thank you. Thank you very much, 
Mr. Chairman.
    And General Abizaid and General Brown, thank you very much 
for your extraordinary service to the country.
    I wanted to go back and just ask you a little bit about a 
former hearing that we had, on February 16th, when Secretary 
Rumsfeld and General Myers presented us with the six strategic 
objectives.
    And I am sure you do not have these, necessarily, in front 
of you, but ranging from neutralizing the insurgents, ensuring 
legitimate elections, increasing international engagement and 
support, and basically they suggested that these are six 
strategic objectives that they were not really in a position in 
an open session to tell us where we were on those objectives.
    But I also know that there is a plan. General Casey has a 
new strategic plan, as I understand it, or a new plan, and I am 
wondering, can you give us some idea of how these are 
interacting?
    This is not going to be a military victory, certainly not 
alone a military victory. And I would like to know more about 
the interaction that you have with the State Department. Where 
is that now? How is that going? Could you be specific about 
where you interact in those areas?
    I know, in visits that I have made, there seems to be a bit 
of a disconnect, perhaps, in terms of the kinds of work that is 
being done on the ground in communities with the efforts that 
are needed to gather intelligence and to work with the local 
population.
    Could you speak to that? Give us some example where this is 
working well and, perhaps, where we have really missed it and 
how we can bring those two together in a more concerted 
fashion.
    General Abizaid. Thank you, Congresswoman.
    I really believe that interagency and, also, for that 
matter, international cooperation are essential to success, not 
only in Iraq, but also in Afghanistan.
    I would say that international cooperation in Afghanistan 
has been particularly good and international cooperation in 
Iraq has left a lot to be desired.
    We would always appreciate having more international 
activity to assist in the difficult work that is going on 
there, which is one of the reasons why we welcome NATO getting 
involved now in Iraqi training and the institution-building of 
the armed forces.
    I believe that the linkage between Ambassador Negroponte 
and General Casey and their two organizations in Iraq are very 
good. I also believe that the linkage that we have with the 
Central Intelligence Agency there is good.
    We have more work to do with other agencies of the U.S. 
Government that can add capability. For example, we do have 
people from the Department of Homeland Security that assist on 
the borders. We have people in the Drug Enforcement Agency that 
try to understand the drug flows that take place and the money 
flows that take place throughout the region.
    So the interagency coordination is very good.
    An example of where it is working well--I think if you look 
up into some of the projects that have taken place in Baghdad, 
a combination of United States Agency for International 
Development, our State Department friends and our commanders in 
the field, that they have been very successful.
    In other areas, we have had a hard time organizing the 
interagency to really move ahead in a way that brings together 
the full power and capability of the U.S. Government and also 
organizes the Iraqi government in a way that is very, very 
efficient.
    I think, for example----
    Ms. Davis of California. What would make a difference in 
those areas?
    General Abizaid. I think an example where more interagency 
activity would be very beneficial would be in the area of 
Fallujah or Ramadi, et cetera. But the security situation there 
makes it difficult for the other agencies to operate with us in 
the same sort of security atmosphere as exists elsewhere.
    But I think more effort in those areas in particular will 
be helpful. We have certainly good diplomatic efforts from the 
State Department in working with the various political entities 
that are in evidence in Fallujah.
    But there is always better work that we could do.
    Ms. Davis of California. And are those objectives ones that 
are being reviewed constantly? Are they in a chart somewhere?
    How much validity, I guess, is put into those specific 
objectives?
    General Abizaid. Well, certainly, we know that security and 
politics have to move together in Iraq. And I think that the 
success of the most recent election shows that politics and 
security are inextricably linked.
    We could not have had the election without the security 
forces enabling it, and yet the election has enhanced the 
security situation.
    And so the continuation of the political process, the 
linkages of the security line of operations, which General 
Casey works, is very, very important with the political process 
that goes on there.
    If we were to step back and say, ``Where can we do more?'' 
It is certainly figuring out how to get the angry young men off 
the streets in Iraq and to work in the economy or in the 
security forces or somewhere so that they are occupied doing 
something productive for the country as opposed to moving 
toward insurgency.
    So if there was an area that I say we should be better 
internationally with the Iraqis and in the interagency, it 
would be enabling the economic process--although, even in our 
own country, that is a slow, sort of, activity that goes on.
    Ms. Davis of California. Thank you. With our just remaining 
moment, I think when the Commandant testified, he said that the 
military was using the intelligence that it was getting and 
suggesting that they were using it as best they could.
    But out of that response, I wonder whether you feel--and, 
perhaps, General Brown, you could respond to this--if you are 
getting the intelligence that you would expect by this time, 
having been in the country for as long as you have and with 
special forces.
    General Abizaid. I think that the intelligence and the 
counterterrorist effort in particular against Zarqawi's 
organization is quite good.
    I think the intelligence at the counterinsurgency level is 
adequate, but needs improvement. And a lot of that needs to 
come from developing sources of Iraqi intelligence, which I 
believe will manifest themselves as the Iraqi security forces 
become more capable.
    Ms. Davis of California. General Brown, is that----
    General Brown. I agree. [Laughter.]
    The Chairman. The time has expired.
    Ms. Davis of California. Thank you, Mr. Chairman.
    The Chairman. Ranking Member Skelton would like to ask a 
question of----
    Mr. Skelton. Yes, let me interpose very, very briefly, 
General.
    During the testimony of the secretary a number of days ago, 
I asked about the possibility of seeing a copy of the General 
Luck report. And as I understand, his comment was in oral, but 
it was going to you for your comments, recommendations.
    And I would just hope and reiterate the fact that we, here 
on this committee, would certainly appreciate having the 
benefit of the finished product when that comes back, 
hopefully, in a few days.
    The Chairman. Thank you, Mr. Skelton. We now turn to Mr. 
Andrews, from New Jersey, five minutes.
    Mr. Andrews. Thank you, Mr. Chairman. I think we meet at a 
very momentous time. I am hopeful and heartened that we are 
living in the midst of sea-change in the area of the world that 
you have responsibility for, where the forces of moderation--as 
you describe them--people want to settle their differences by 
votes and debates or defeating people who want to settle their 
differences by violence.
    The men and women you lead are playing an irreplaceable 
role in that change, and we thank you for it and we thank them 
for it.
    I believe that what happens in Iraq is absolutely pivotal 
to whether the struggle that you have described and I have 
echoed turns out the way we want it to. I think that if five 
years from now there is a stable, democratic government in 
Baghdad, the Middle East will be a wholly different and wholly 
better place.
    I think whether or not that happens hangs in the balance. I 
think by no means is it a foregone conclusion. And I think that 
one of the things that will determine that outcome is the 
quality of intelligence that you have and that the men and 
women you lead have.
    General Abizaid said just a minute ago that he would 
characterize intelligence at the counterinsurgency level as, 
``adequate but needing improvement.''
    We have had a lot of questions today about the quantity of 
the insurgency. I would like to ask a question about the 
quality.
    General Abizaid, on page 11 of your testimony today--
written testimony--you discussed the Iraqi insurgency, 
particularly the Former Regime Elements (FRE), and it is your 
observation that they loosely coordinate anti-coalition attacks 
but do not display centralized command and control or a shared 
vision for Iraq's future.
    There was a report in the New York Times about 10 days ago 
describing a systematic series of attacks upon the 
infrastructure--the energy infrastructure, in particular--of 
Iraq. And the Iraqi oil minister, Thamir Ghadban, is quoted as 
saying that ``There is an organization''--sort of a command 
room operation in his area of responsibility. He said, ``The 
scheme of the saboteurs is to isolate Baghdad from the sources 
of crude oil and oil products,'' and he goes on to discuss 
bringing Baghdad to its knees.
    Are you satisfied with the quality of the intelligence you 
are getting, not simply the quantity about how many resistance 
fighters there are, but are you satisfied with the quality of 
intelligence about the nature of the organization of the 
insurgents?
    General Abizaid. I am never satisfied with the 
intelligence. To be honest with you, and I do not think any 
field commander ever has been.
    And yes, General Casey, there are plenty of questions that 
we have that we put demands against our troops in the field, 
our own intelligence sources from DOD, the international 
community intelligence sources, and also the sources from the 
Iraqis and elsewhere.
    The command and control of the insurgency I do not believe 
is centralized. I believe it is the remnants of the ex-Baathist 
structure.
    I believe that, in the past year, we have been fortunate to 
see coordination nodes appearing in places such as Syria, which 
has caused us, diplomatically, to put pressure on the Syrians 
which has, I think, to a certain extent, probably had some 
effect, although not enough effect.
    And so there are definitely coordination nodes that are 
going on, and there are certainly cells that are linked.
    But it is interesting, as our people talk to the people 
that they bring in that are considered leaders, that their 
knowledge of what the other cells are doing it is pretty 
classic. I mean, they have little knowledge of what the other 
cells are doing and how they are being organized, financed, et 
cetera.
    And that is----
    Mr. Andrews. Do you disagree with the characterization by 
the Iraqi oil minister that there is a sort of command and 
control of the attacks on the infrastructure?
    General Abizaid. I think there are many reasons for the 
attack on the infrastructure. I think some of them are 
insurgent, some of them are criminal.
    But I think that the infrastructure attacks are as much a 
problem with criminal activity as they are with insurgent 
activity.
    Mr. Andrews. Thank you very much.
    The Chairman. I thank the gentleman. The gentleman from 
North Carolina, Mr. McIntyre.
    Mr. McIntyre. Thank you, Mr. Chairman, and thank you, 
gentlemen, for your testimony and your commitment to our 
country and your great service.
    General Brown, as you know, Congressman Hayes, who was here 
earlier, and I, along with Congressman Jeff Miller and Jim 
Davis, co-chair the Special Operations Forces Caucus. And we 
are hoping to set up a time with you, in the near future, to 
have you come to one of our meetings to speak to the caucus and 
help increase awareness among all of our colleagues here on 
Capitol Hill in appreciation for what you and special 
operations forces do.
    And I hope that we will be able to work out a mutually 
convenient time for you to come and meet with the caucus here 
on the Hill.
    General Brown. I will look forward to it, Congressman.
    Mr. McIntyre. Thank you. Thank you very much.
    On page 13 of your written testimony that you submitted 
today, you addressed the issue of civil affairs forces and 
state that, quote, ``They are key to our long-term success in 
the Global War on Terrorism.''
    Later on that page you say, also, and I quote in part, 
``Future rotations will be constrained by the number of 
personnel in these specialties available.''
    I know there has been some talk about the Army moving some 
of the civil affairs assets out of SOCOM and into the 
conventional Army. And what would be the impact of such a move 
and what is your recommendation?
    General Brown. First of all, let me talk about civil 
affairs real quick.
    We have 26 battalions in the Army Reserve. We have pretty 
well used over 90 percent of them. As a matter of fact, I think 
the actual figure is about 98 percent of them.
    What we are doing right now--we have taken some volunteers 
and trained them in civil affairs tasks, and we will use them 
in some key areas. Hopefully by the next rotation, we will have 
grown some of the civil affairs infrastructure that we are 
growing--even if temporarily--and get them through a civil 
affairs school at Fort Bragg so that we can continue this 
important piece of the mission.
    As you know, our civil affairs forces go in an categorize 
infrastructure development issues in an area. They prioritize 
them.
    They then go back and kind of prioritize them at the higher 
level and then try and get funds to support all the 
infrastructure development, which is key to defeat an 
insurgency because, as you know, in fact they do then build 
legitimacy of the government and provide services to the people 
in the field.
    We own all the civil affairs. We are the proponent for 
civil affairs in the Department of Defense.
    There are three other battalions; those are in the United 
States Marine Corps. We have just agreed to start training all 
the Marine civil affairs forces down at Fort Bragg at our 
school, so that is a positive thing.
    Right now, we are looking at with the Army, and I just met 
with General Schoomaker yesterday on what is the best for 
positioning civil affairs in SOF or in the big Army, and what 
percentages should it be? Or should it all just stay in SOF or 
should it all go to the Army?
    Quite frankly, civil affairs is a key portion of Special 
Operations Command, and we will need civil affairs forces in 
special operations, I believe, no matter what decision we 
ultimately make.
    But quite frankly, it is not about whether they should be 
in the Army or in SOF; it is how to maximize the use of these 
very, very skilled people out in the battlefield, in support of 
the conventional force and special operating forces. Most of 
our battalions belong to special operations, but they in fact 
work for the conventional force.
    So General Schoomaker understands civil affairs, for 
obvious reasons, very well. And so him and I met yesterday, and 
we are going to make sure we do what is right for civil 
affairs.
    Mr. McIntyre. So is your leaning more toward, then, that 
that should stay under the prerogative of the SOF?
    General Brown. I think that there is a portion of civil 
affairs that supports special operations that should stay in 
special operations for sure.
    I think there is another piece of civil affairs that we 
want to make sure we put them where they can best support the 
conventional forces, but continue to have the flexibility that 
we currently have with our civil affairs forces.
    So we are into the discussions, and they are all good 
discussions, and quite frankly, we will do what is right for 
civil affairs and make sure that we are maximizing their 
capability on the battlefield to support the geographic 
combatant commanders and special operations forces.
    Mr. McIntyre. Thank you, sir.
    General Brown. Thank you, sir.
    The Chairman. I thank the gentleman. The gentleman from 
Ohio, Mr. Ryan.
    Mr. Ryan from Ohio. Thank you, Mr. Chairman.
    Thank you for being here, withstanding this.
    A couple of points that I just want to make before I ask 
any questions: The issue of China came up, and I know--we all 
know--that there is a strategic move in that region by the 
Chinese. And I think that--and Chairman Hunter and I have been 
working on a lot of different issues regarding the 
manufacturing side of this--but I think it is that much more 
important for our reputation in the Middle East to be stellar, 
because the Chinese will take advantage, in all the different 
countries in the Middle East, to play against us in order to 
gain some kind of economic interest.
    I would also like to put in a plug for the 9th, 10th 
Airlift out of Youngstown, Ohio, which I know has been doing a 
lot of work and moving a lot of vehicles and equipment around 
for you. And I just want to say what a great job they are 
doing.
    And I just received, General Abizaid, some photos of some 
vehicles from the 42nd Infantry Division of the Army National 
Guard. And I want to share these with the committee to make 
some copies maybe after. And I will bring these to you after 
the--but they are pictures of vehicles that are being used from 
not only Kuwait to Iraq but in missions in Tikrit, Samarra, 
Baghdad.
    And I just want you to take a look at a couple of these 
pictures, because these trucks do not have windows; they are 
not armored at all. And there is one picture in here in 
particular that I want to show. It has the gun mounted in the 
back of the truck on top of an old oxygen tank.
    And there are, you know, I guess several vehicles that this 
group in particular is using. It seems to me very dangerous. 
And I was just wondering if you can comment. Is this routine 
that they would be using these kinds of vehicles, because I 
know Secretary Rumsfeld said that by February 15, no vehicles 
would be going on a mission if they were not armored in some 
fashion.
    So I just wanted to give you an opportunity to clarify this 
somehow.
    General Abizaid. Thank you, Congressman.
    I very much appreciate all of the service of our young men 
and women out there. And I can assure you that their safety is 
foremost in the minds of all the commanders in the field.
    General Casey has issued an order that no nonarmored 
vehicle will operate in those areas that are clearly contested 
areas without having a level of armor protection that we define 
as level three or up.
    And so if that is happening in this unit, it should not be 
happening.
    And I appreciate the information. I will convey it to 
General Casey and it is our intention to protect the troops as 
best we can.
    Mr. Ryan from Ohio. Can you get back to us with some kind 
of response?
    General Abizaid. Yes, I will.
    Mr. Ryan from Ohio. I appreciate that. I am not trying to 
put you on the spot, but just, to me, it seems like a very 
dangerous situation----
    The Chairman. And if the gentleman could share that with 
the committee, too. We have a staff team that is dedicated to 
the armor situation.
    Congressman Ryan, do you know where those pictures are 
taken?
    Mr. Ryan from Ohio. I believe--well, these vehicles were in 
Tikrit, Samarra and Baghdad, the missions they were going on. 
As easy as--last week, the lead vehicle was armored and ran 
over one of the devices and it blew up, but it was only the 
lead vehicle that was armored and the rest of the troops were 
in these kind of vehicles which, to me, at this stage of the 
war I think is unacceptable.
    And I just hope that we can work through and figure out 
what the problem is there as soon as possible.
    But I will provide the picture----
    General Abizaid. Congressman, I agree that at this stage of 
the war it is unacceptable and it is not our intent to have it 
be that way. Largely with the help of this committee and your 
chairman in particular, we have made an incredible move in 
armoring vehicles that were not designed to be armored. And I 
thank this committee for the help that they have given us.
    Now, it is also true that within secured areas--for 
example, within the compound in Tikrit--theoretically, those 
vehicles could be used.
    But, look, I take it seriously. We will look into it. We 
are all--these are our friends and our colleagues that are out 
there fighting and our intention is to protect them.
    Mr. Ryan from Ohio. We want to work with you to help 
whatever we have to do to make sure this happens.
    One of the doors was actually secured with duct tape. So 
this is a very serious issue.
    I had a conversation with a young man who was on a lot of 
these missions in a lot of the hot spots and just returned home 
a few weeks back, and he was communicating to me about the 
attitude and the morale of the troops, and how they would build 
a city council chamber and the chamber would get blown up; they 
would build a hospital, they would be around and the hospital 
would get blown up, and how that was affecting the morale of 
these guys.
    And he told me, ``At this point, we are just fighting for 
each other to make sure that we get home.''
    And so one of the questions I had was: How many hospitals 
and city council chambers or city halls, schools have we built 
over the past year or two that we actually constructed and were 
blown up? How often is this happening? And do you have any hard 
numbers for us?
    General Abizaid. I would have to take that for the record, 
Congressman.
    Mr. Ryan from Ohio. Can you get back to us?
    Because, as far as the mentality of the troops seeing this 
over and over and not seeing progress maybe in these four 
provinces, I think is very important.
    [The information referred to can be found in the Appendix 
beginning on page 168.]
    Mr. Ryan from Ohio. One final question, Mr. Chairman, if I 
might.
    We were told originally when this whole war started that we 
were going to be able to use the oil in the country for a lot 
of the reconstruction. And now the President is coming back 
with another $80 billion.
    I am going to vote for it. I voted for the defense 
appropriations and most of the supplementals.
    And hearing from Senator McCain and some others that we may 
be there for another 8 to 10 years and that, you know, $80 
billion a pop plus the defense appropriations, we are talking a 
trillion dollars over the next 10 years, under enormous budget 
constraints here.
    How much more money are we going to need? How much more are 
we going to have to ask the taxpayer for over the next 5 to 10 
years, in your best estimation?
    General Abizaid. Well, Congressman, that is clearly out of 
my lane.
    But I do believe that the security situation over time 
becomes more and more Iraqi, that as the security situation 
improves, that is Iraqi-led, that there will be a boom in the 
economy, that there will be a very robust capability of the 
Iraqis to fund more and more of what they need to do for their 
own defense, and that already, even operating below their 
current capacity, the Iraqis are putting money back into their 
own economy.
    In those areas of the country, in the south and in the 
north where the security situation is essentially what I would 
call normal for that part of the world, there is a great of 
economic activity.
    I think Iraq, once stability occurs in the center of the 
country, will become one of the richest countries in the Middle 
East.
    Mr. Ryan from Ohio. And how far out do you see that?
    General Abizaid. Right now----
    Mr. Ryan from Ohio. From what I am hearing from guys in the 
field, I mean, the fact that the governmental chambers or 
buildings are getting blown up--we saw the oil line the other 
day. I mean, how long is this going to take?
    General Abizaid. Well, how long is it going to take? It 
depends upon when the Iraqi security forces will be robust 
enough to take the lead.
    I think that our combat capability goes down over time. Our 
training capability will probably stay fairly robust over time.
    Mr. Ryan from Ohio. Are we talking in the next five years, 
do you think?
    General Abizaid. I would say certainly training capability, 
next five years, provided the Iraqi government wants it that 
way. They are a sovereign country.
    Mr. Ryan from Ohio. I appreciate all your efforts. And we 
want to work with you.
    If I can, Mr. Chairman, I just want to talk about Ukraine.
    They said they were pulling out, phasing out their troops. 
How much of an effect is that going to have on the overall 
mission?
    The Chairman. Let me ask the gentleman--we have some 
members that--at least one member here still has not asked a 
question. Let me go to----
    Mr. Cooper. I yield to my colleague.
    The Chairman. Okay. Mr. Cooper has yielded his time to you. 
Go right ahead.
    Mr. Ryan from Ohio. Thanks, Mr. Cooper.
    Just on Ukraine--just 30 seconds.
    General Abizaid. The Ukrainian brigade is in the center 
eastern portion of the country near the Iranian border in an 
area that is--primary population center is Al Kut. That brigade 
is in an important place. It has done a good job in helping 
stability take place there.
    We will miss the brigade when it departs. We are hopeful 
that other international forces will volunteer to come in there 
and help in that area.
    We would also say that the Iraqi security forces in that 
region have done a pretty good job in exerting some control.
    So General Casey is in the process now of looking at how 
that will affect the overall force posture.
    But you notice the other day we had the Dutch leave, for 
example. And we were very pleased when an Australian battalion 
popped up to take their place.
    So there is more international interest in the mission as 
the political process moves forward, so it is possible that 
there will be some additional international help.
    But I think a combination of the current multinational 
force set plus the Iraqis with adjustments, we will be able to 
deal with the adjustment, and we are very grateful for the work 
that the Ukrainians have done.
    Mr. Ryan from Ohio. Great. Thank you for all your service. 
I yield back to Mr. Cooper.
    The Chairman. I tell you what? The Ranking Member has a 
question.
    And, Mr. Cooper, we will go to you and let you have your 
full time here.
    This is quite a deft performance by Mr. Ryan. He managed to 
get through 10 minutes without a gavel here.
    The Ranking Member is recognized.
    Mr. Skelton. Along the line of armored protection, I was 
able to obtain a flag for the 92nd Engineering Combat 
Battalion, the heavy of the 3rd Infantry Division, which is out 
of Fort Stewart. It is operating in Baghdad today.
    And a memo from the commander of that unit reports that his 
heavy equipment--graders, bulldozers, et cetera--which he uses 
to rebuild Iraq, is unprotected as the heavy equipment 
transport trucks he hauls them around with.
    He is willing to replace at least the windshields with 
ballistic glass, which he believes is available from the 
manufacturer, but not available in theater.
    A rather lengthy e-mail from him, but let me just give you 
a quote: ``I am not comfortable with the up-armor level of my 
heavy engineering equipment or my heavy equipment 
transporters.'' Are these engineers being left out of the 
equation of up-armor?
    General Abizaid. No, sir. The engineers are--no one that is 
operating out in the areas where the insurgency is active is to 
be left out.
    Mr. Skelton. They just were hit with an IED, the other day.
    Would you ask your staff to take a look at that--the 97th 
Engineering Combat Battalion?
    General Abizaid. Yes, sir.
    Mr. Skelton. Thank you.
    General Abizaid. I will, sir.
    The Chairman. On that point, one thing that we have done as 
a committee is try to ensure that there is a stack of steel, 
because there is lots of equipment over there, lots of units 
moving in and out.
    And when we have been over there in various times, we have 
seen these trucks. Early on in the war, some of your five-tons 
were double-hauled with plywood, when the IEDs first started 
popping up.
    So the first plan of armament, of course, was in the field, 
with units welding on and tacking on steel that was there in 
the field.
    And one thing that we have received, I think, a good strong 
actions from the Secretary of the Army on is to put a supply of 
steel--just flat steel, high-hard or rolled homogeneous armor 
(RHA) stuff that has good stopping capability for frag and 
bullets--at location in Ballad and other places where our guys, 
in the least, can cut the stuff with plasma cutters and bolt it 
on or weld it on.
    My understanding is that there is a supply in almost all 
these places. But one thing we have been looking at--that we 
have been working on as a committee--is to get a lot of 
ballistic glass over there that is kind of generic.
    And I was looking at the e-mail. We all get e-mails from 
our guys in the field, plus all the members here have been over 
there several times.
    And we need to have a generic ballistic glass that we can 
put on windshields that can be bolted on easily or snapped on, 
that we can put right over the front panes on the big trucks 
and big pieces of equipment. And I think that is something that 
is doable in the same sense that we can get a stack of steel 
over there.
    And if you get some of this--there are some species of this 
ballistic glass that you can cut pretty easily and you can put 
into place, and we can either bolt them on or snap them on.
    So we would hope you would work with us in terms of getting 
that stuff in place.
    And, Mr. Cooper, you are up next here. So do not take off 
on us.
    Mr. Cooper. Thanks, Mr. Chairman.
    The Chairman. So let me talk to you afterwards, General, 
and let's talk about trying to get some piles of ballistic 
glass in-country, too. Because I think that is one of the 
concerns that these operators of heavy equipment have.
    The gentleman from Tennessee, Mr. Cooper, is recognized.
    Mr. Cooper. Thank you, Mr. Chairman. And thank you, 
Generals.
    I apologize for being late. We had Chairman Greenspan of 
the Federal Reserve in my budget committee that I serve on. And 
I am late for a speech to some Navy folks, right now.
    But I was wondering if you saw an article last week in the 
Wall Street Journal that talked about standing up Iraqi 
militias of so-called pop-up forces. Because at least according 
to that article, they are standing them up with remarkable 
speed, with remarkable unit cohesion, with remarkable cost 
effectiveness.
    And are we able to use any of those techniques in our 
efforts to Iraqify security forces?.
    General Abizaid. Sir, I saw the article.
    I think it is somewhat accurate in the way that it 
describes militias. Although, I am more apt to describe a 
militia as being the ``peshmerga'', the Badr Corps, the more 
organized militias.
    Some of what these units happen to be what I would call 
home guard units that spring up for local protection--and some 
of this happened during the time of the elections, because 
people wanted to have more protection.
    And sometimes it was sanctioned--most of the time it was 
sanctioned by local political authorities in Iraq.
    There are also, in the Ministry of the Interior, the 
special police commando units, that were not units that were 
designed by Americans or originally sanctioned by Americans, 
but they turned out to be a good solution to fighting the 
insurgency.
    And three units have been subsequently taken into the force 
structure and given the necessary command and control to make 
them more effective.
    So we all have to keep in mind that Iraq is a sovereign 
country, that the Ministry of the Interior and Defense have 
their own money to spend on forces, and that one of the reasons 
that people see a changing face on this American plan is that 
the Iraqis have a say in the plan and certainly have a say in 
the plan when they equip and train units on their own.
    Very interestingly, other Arab countries contribute to the 
Iraqi security equation, such as the United Arab Emirates and 
Jordan, et cetera.
    And so I think we just need to keep in mind that this is 
not an American 100 percent controlled and sanctioned activity; 
it is a partnership between a sovereign Iraqi government and a 
well-resourced multinational force responsible for training and 
equipping the part of the Iraqi forces that General Petraeus is 
working on.
    We have to be flexible in the way that we think about armed 
forces there. And we have to be mindful of what Iraqi leaders 
want to do there. And I think General Petraeus has been very 
flexible in that regard. And when we have successes, we try to 
reinforce them.
    But when we have militia forces that are a threat to the 
peace, ultimately militia forces--uncontrolled, unrecognized--
worked against the broader peace in the country. And 
ultimately, the Iraqi national sovereign authorities have to 
decide what it will look like.
    Mr. Cooper. The article in the Wall Street Journal 
reflected that difficulty. Because on the one hand, you want 
efficiency; but on the other hand, you want control.
    I am increasingly worried that the American taxpayer will 
demand more cost effectiveness than we have seen so far. And I 
am in no way critical of our troops or of your service. You 
have done the best human beings could possibly do.
    But especially if this becomes a trillion dollar war, 
people are going to wonder where the money went.
    So as we look at Iraqification, the cost-effective means of 
doing so are going to be very important.
    We do not want to pinch pennies here. And we are all going 
to vote for the supplemental anyway. But I am worried about 
that method of budgeting. Because technically, after September 
30th of this year, there is no money for the troops, and of 
course, there will be some outlays that continue.
    But this is the second year in a row we have suggested that 
this process, even though most all of us know that we have to 
plan several years ahead.
    So I hope in the next budget cycle, you could urge your 
civilian masters at the Pentagon to try to put this in the 
normal budgeting process, because we were confronted on this 
committee a couple of weeks ago with a hearing on the Army, and 
we only had the President's budget. And he actually cut the 
Army of the United States in that budget.
    Now, if you add in the supplemental--which we were unable 
to see at the time of the hearing--overall Army spending went 
up. But here we were faced with incomplete information, a 
confused, unsettling budget scenario, and nothing is more 
important than supporting our troops at a time of war.
    And yet, under the President's own budget, we cut them off 
September 30th of this year. That is crazy. And it is the 
second year in a row we have done that.
    I know the Service Chiefs testified before the Senate last 
year complaining about this, but they were quickly disciplined 
the next day and they changed their tunes. But we have to do 
better.
    And I do not want to get you in trouble with your bosses. 
But I will be complaining at this end. If you complain at your 
end, maybe we will have more effective budgeting for our 
military in the next cycle.
    Thank you, Mr. Chairman.
    The Chairman. Okay. I thank the gentleman.
    And I would just tell the gentleman, I look forward to the 
requirement of putting together another bridge package like the 
one that we did last year. I think we bolted a $25 billion 
package on for the last three calendar months of the year, last 
year.
    I think that is probably going to be required this year.
    Also, Mr. Abercrombie wanted to have another round of 
questions here, and I think also Dr. Snyder and Mr. Taylor.
    The gentleman from Hawaii is recognized for five minutes.
    Mr. Abercrombie. Thank you, Mr. Chairman. A question for 
General Brown and then a follow-up for General Abizaid.
    General Brown, does the Special Operations Command support 
a proposal that Special Operation Forces be able to enter a 
foreign country to conduct military operations without the 
explicit support of the United States ambassador or requisite 
assigned persons of the State Department?
    General Brown. No, sir. I mentioned in my opening comments 
that we have never deployed into a country without coordinating 
with the ambassador and getting appropriate country clearance 
through the country clearance process, which he has to approve.
    We have never deployed into a foreign country in that 
manner and we do not intend to.
    Mr. Abercrombie. That is not my question. You say you do 
not intend to. Is there a proposal extent now being discussed?
    General Brown. There is not one.
    Let me put it this way: I do not know of any proposal at 
this time for Special Operating Forces to go into a country 
without the chief of mission or the ambassador's knowledge.
    Mr. Abercrombie. To the best of your knowledge, the 
position of the Secretary of Defense, at least in terms of what 
has been expressed to you, is in opposition to such a proposal 
or any reports of that kind of thing are erroneous.
    The Secretary of Defense has not had any discussions or 
political appointees in the Secretary's office or in the 
Department of Defense have not had discussions with the special 
command.
    General Brown. No, he has not. No, he has not.
    Mr. Abercrombie. Are you aware of----
    General Brown. He has not had any discussions with me that 
Special Operating Forces that work for me or any Special 
Operating Forces would go into a country without the 
notification of the chief of mission or ambassador.
    Mr. Abercrombie. And absent orders to the contrary from 
those in authority over you, your position is that the Special 
Operations Command opposes that kind of a process.
    General Brown. We do not. I see no purpose--I mean this--
one of the ways that we are going to make an impact on the 
Global War on Terror is through coordination with the 
interagency.
    Mr. Abercrombie. Thank you. I appreciate it, appreciate 
your directness.
    General Abizaid, I think there may--I do not want to say 
there is a contradiction in some of the testimony here. There 
may be some paradoxes or the context of the questions may have 
given different answers.
    But I want to get clear here on the militia side of things. 
You stated in the course of your testimony--course of an 
answer, I believe, to one of the inquiries, ``Militias need to 
be demobilized.'' Now, to my mind demobilized is a lot 
different from being incorporated or integrated.
    The militia question, then, is one that is serious, because 
as I read through your testimony--and I have read through your 
testimony and I am going in particular to page 17 and 18--there 
is no mention of militias other than this Muthanna Brigade, 
which was the creation of Mr. Allawi.
    In your testimony, then, does your citation of the forces 
incorporated into the regular army, aside from this Muthanna 
Brigade, leave out these militias, and if your testimony does 
do that--that is to say, leave them out--are you really so at 
ease with the idea of these militias popping up all around the 
country, being paid from sources I cannot quite figure out, 
being incorporated in some fashion into your counterinsurgency 
operations that you are touting?
    It strikes me that this is a very, very risky operation in 
the name of sovereignty.
    General Abizaid. Congressman, I believe in the long term 
that militias do not add to the security equation.
    Mr. Abercrombie. You understand I am using the word militia 
in a generic sense here.
    General Abizaid. I understand you, sir.
    I believe that the program that we have in Afghanistan, 
where we demobilize, disarm and reintegrate, is a program that 
could work.
    Mr. Abercrombie. I am merely speaking about Iraq. 
Afghanistan is a separate area of inquiry for purposes of my 
question.
    General Abizaid. I believe that what you said, that 
militias unregulated, uncontrolled, being paid by outside 
sources, is not good for the sovereignty of Iraq is--I agree 
with that.
    Mr. Abercrombie. Do you see that, then, as a difficulty for 
these forces, which you are attempting to encourage to 
confront--because they are operating, as the article has been 
referred to, this Wall Street Journal article--although there 
are other representations in the press as well on this--that if 
the units of the Iraq army, which you refer to here and the 
battalions that you refer to here, have to confront these as 
well, what is being undertaken right now to deal with that 
contingency?
    General Abizaid. There was a plan that was signed by the 
Iraqi interim government about militia demobilization----
    Mr. Abercrombie. To be done by June?
    General Abizaid [continuing]. Last year, to be done by the 
Iraqi sovereign government with the concurrence of the various 
parties that had militias.
    I do not regard that program as being either successful or, 
at this time, practical. And I think it is important as the new 
Iraqi government emerges that the issue of militia 
reintegration, demobilization and disarmament be dealt with.
    Mr. Abercrombie. I appreciate your candor.
    Mr. Chairman, I suggest that this is an issue that we need 
to pursue in another hearing perhaps--perhaps even under other 
circumstances, because I think that General Abizaid has stated 
quite clearly that unless we come to grips with this in a 
manner that allows us to utilize the present capacity of the 
United States armed forces or coalition forces, as it is 
referred to, we may undermine that which we seek to accomplish 
to a degree that disenables us from being able to succeed.
    The Chairman. Well, I appreciate the gentleman's thoughts.
    And I would think that probably in a closed hearing we 
might want to pursue with you, General, and perhaps with 
Secretary Rumsfeld, this issue, because it is obviously a part 
of the fabric of discussions from here on out.
    So I appreciate the gentleman's question.
    We have the gentleman from Connecticut. Mr. Simmons has not 
had an opportunity to ask a question, so the gentleman is 
recognized.
    Mr. Simmons. Thank you, Mr. Chairman. And I thank the two 
witnesses for their testimony here today. They have worn the 
uniform for many years.
    I know that every time we take a casualty it hurts, and it 
is a matter of great concern. For those of us who serve on this 
committee--and I guess in particular for those of us who have 
also worn the uniform--those casualties hurt back home too. And 
as a member of this body, I have made it a point to contact 
families that have wounded and killed and to give them all the 
aid and comfort that I can.
    The issue of up-armored Humvee is not a new one, but I 
would simply share with General Abizaid that if the field 
commanders need acceleration of any deployment of equipment 
that might preserve and protect the lives and safety of our 
soldiers, I hope that he will come to us to ask for our 
support.
    And I just put that out there and I suspect that that is 
the case.
    General Brown, I want to simply thank you for your courtesy 
in hosting me down at Special Operations Command in Tampa. I 
had already spent four years as a reservist at CENTCOM, so I 
focused my attention with Special Operations Command.
    I was impressed by what you are doing in the area of open-
source intelligence so that your all-source joint intelligence 
center is an all-source joint intelligence center. There was 
discussion of plus-ups and upgrades to make it even more 
capable, not at a tactical level, but at a strategic level.
    And I notice in our discussion of tactical intelligence you 
discussed the disciplines of signal intelligence (SIGINT), 
human intelligence (HUMINT) and imagery intelligence (IMINT). 
But at a strategic level, the discipline of OSINT, open-source 
intelligence, intelligence generated from openly acquired 
information, is critically important, because it gets into the 
areas where we may not traditionally have gone.
    And I will simply ask you, General Brown, are there areas 
in the area of strengthening your joint intelligence center, 
your all-source center, are there areas where we can be 
productive in plussing up to make sure that your people have 
all the capabilities they need?
    General Brown. I appreciate the question, and I appreciate 
your support of our troops and their families. And I appreciate 
your visit down to Special Operations Command to look at all 
the things we are doing down there.
    As you know, and you visited our Special Operations Joint 
Interagency Collaboration Center, that that thing is off and 
running.
    I think right now we have a good handle on where we see it 
going in the future. It is going to grow. We are going to grow 
some people in the physical location, as well as growing its 
capability to reach out and touch other databases and 
everything.
    So right now I think it is in good stead.
    I do share your interest in open source intelligence. I 
think that is important. I think we are really starting to get 
our arms around it.
    So thank you very much for your support.
    Mr. Simmons. Thank you.
    General Abizaid. Congressman, you having been out in 
CENTCOM for four years and having visited his headquarters, you 
know how woefully in need of funding we are to improve our 
headquarters. [Laughter.]
    Mr. Simmons. Looked pretty good to me. But I did not go 
inside.
    General Abizaid. Congressman, first of all, all of us are 
very, very mindful of the need to protect our forces, but I do 
not want to mislead this committee. This is a very dangerous 
environment in which we operate. We have had M1 tanks knocked 
out. We have had Bradleys knocked out.
    We send soldiers without armored vehicles into battle. And 
this is a deadly, dangerous type of combat, and we do 
everything that we reasonably can to protect our soldiers and 
allow them to accomplish their mission.
    And we do very much appreciate what this committee, in 
particular, has done to help resource us in protecting them 
even more.
    We have to keep in mind--and I hope this committee keeps in 
mind--that when we design our armed forces, we have to design 
our armed forces for the 360-degree battlefield and not the 
linear battlefield. And if there is a lesson to be learned 
about how we were equipped going into this war, that is 
probably one that should not be lost on us.
    Mr. Simmons. I appreciate that response, and I would simply 
say, as a comment, that I think the performance of the troops 
in the field has been extraordinary. I think the leadership has 
been excellent.
    If I was to look to an area where I personally felt there 
was a problem, it is making sure that the supply system--the 
supply system--is nimble enough and flexible enough to respond 
to the field requirements without going through layers and 
layers of red tape and testing.
    That is the area that I am concerned about. And I can 
assure you--I believe this is the case--that if field 
commanders say we need something quickly and we have to bypass 
some of the red tape, that members of this committee and 
Members of the Congress are more than happy to do that to save 
the lives of our young men and women.
    General Abizaid. I appreciate that, sir. And, as matter of 
fact, this committee has done that.
    The Chairman. I thank the gentleman.
    And I thought it might be appropriate at this time to tell 
the committee that I have an Associated Press article here in 
front of me that states that Tillie Fowler has passed away, a 
former member of the committee, a member of the Republican 
leadership in the House, a great friend to many of us here.
    Tillie Fowler was a wonderful, wonderful person who fought 
tirelessly for the folks that wear the uniform of the United 
States. And she carried her leadership abilities after she left 
the House after eight years to continue to serve in some pretty 
difficult and inconvenient places.
    She worked the issue of sexual harassment at the Air Force 
Academy, very tough and challenging issue, and she was one of 
the troubleshooters on that panel. She worked on one of the 
investigative panels that did a thorough analysis of prisoner 
abuse.
    Tiller Fowler worked on many, many issues while she was 
here as a member of the House Armed Services Committee, to not 
only make sure that our people were treated right and had good 
pay and good benefits, and that the families were well treated, 
but also worked on all the equipment issues.
    She was a tireless worker for the armed services of the 
United States. And it is with great sadness that we see the 
news about Tillie and about the stroke that she had a couple of 
days ago, and now the fact that she has passed away.
    So our very deep condolences to Buck, her husband, and to 
her daughters, Elizabeth and little Tillie.
    We have a couple other gentlemen who would like to ask 
follow-up questions here, and then we will be wrapping up 
pretty shortly here, Gentlemen. So thank you for hanging with 
us.
    Mr. Taylor, did you have further questions?
    Mr. Taylor. General, I do appreciate your service to our 
country. I am respectful of your high rank.
    But I was disappointed in your answer when I asked you what 
steps we are doing to turn around the fact that the majority of 
the Iraqis have an unfavorable view of Americans. I would hope 
that you would give that some thought and get back to me on 
that, because I think we have to have some attainable goals 
there. I think we have to have a road map to get there.
    And I am going to disagree with you. I think you have to 
have the people on your side to win a counterinsurgency. You 
are the professional; I am not, but I am stating my opinion.
    The second thing I would like to ask you is, we recently 
sent about 4,000 Mississippians over to Iraq, National 
Guardsmen. One of the failures, I think, in their training is 
that they had not had a day of training with jammers for 
improvised explosive devices, even though they had trained 
extensively at Camp Shelby, trained at the National Training 
Center.
    I would hope, as the CENTCOM commander, that you could use 
your influence to see to it that that is changed for future 
units rotating into the theater.
    I track this pretty closely. Over half of our casualties 
are the results of IEDs. I know the jammers are not perfect, 
and I know we do not have them on every vehicle, but I think it 
is a key tool that can prevent some fatalities, can prevent 
some wounds.
    And I would kind of like to hear that something is being 
done to get, A, enough jammers to where they can have them both 
in theater and here in the States to train with; and that it 
becomes a requirement like the other training they had before 
they get in theater.
    General Abizaid. Congressman, I appreciate your concern 
that they did not receive any training with regard to something 
that I consider to be very important for force protection.
    I will go find the unit in the field myself, the next time 
I am there. I will go talk to their leaders. And in the 
meantime, I will talk to General Casey here this evening about 
making sure that we check when units are flowing through the 
theater to make sure they have the tools at their disposal and 
the training on the tools at their disposal to protect 
themselves.
    I also very much appreciate your concern about the 
unfavorable views that people hold of us in a region that I 
have been living in and been part of for an awful lot of my 
professional life. And I also happen to be an Arab American.
    I mean, sometimes I do think that the problem we have with 
the Middle East is the good old saying from that movie ``Cool 
Hand Luke'': ``What we have here is a failure to communicate.''
    So if I left you with the impression that I do not think we 
should improve our communication skills, I very much do think 
we should. I think part of the problem is that there is a lack 
of respect on both sides that needs to be bridged.
    And to the extent that the government of the United States 
can help do that, and to the extent that the good actions of 
our armed forces can help do that, then I am all in favor of 
changing the equation.
    Mr. Taylor. Have you set a goal--General Brown touched on 
it, and it was kind of reinforced last week when I visited with 
some guys from Company C of the 7th. They normally operate in 
Latin America. Probably 95 percent of them are fluent in 
Spanish. They understand the way of life down there.
    Have you set a goal as to what percentage of your force in 
Iraq you would like to see that could speak the language?
    General Abizaid. I do not have a goal, but I know where we 
are on it, and it is nowhere close to what it needs to be.
    I do not believe you were here, Congressman, but 
Congressman Reyes brought up the point in my written testimony 
about my great desire to invest in the human capital to bridge 
this gap. That means training people in languages and cultural 
requirements and understanding the religion.
    What the requirement is, is a good question. Where we are 
now is not very far along. We certainly have to do more.
    Mr. Taylor. Would it serve the interests of our nation to 
set that goal? Well, apparently, we are going to be there 
another five years, at the least. Are you in a position to get 
there----
    General Abizaid. Yes, sir, my staff is working with the OSD 
people to ascertain how we are going to do that, what that 
needs to be, how much we are going to spend, what the 
requirements are.
    And I have discussed it with all of the service chiefs 
personally.
    Mr. Taylor. Is it something that this committee should 
budget as a line item?
    General Abizaid. I think everybody thinks it is a good 
idea. You know how it is, getting from the good idea to reality 
is something else again.
    But we need to, as a national goal, strategically, invest 
in the human capital that understands this part of the world.
    Mr. Taylor. Thank you again.
    The Chairman. Thank the gentleman. The gentleman from 
Arkansas, Dr. Snyder.
    Dr. Snyder. Thank you, Mr. Chairman. General Abizaid, I 
have thought for a while now that one way to get at some of 
these issues could be that we incorporate language training as 
part of boot camp, to the extent that perhaps you have a fluent 
speaker, drill instructors, day after day after day for three 
months, that it would just be from the getgo being a soldier 
means you learn a foreign language and start picking that up, 
so it does not have to be an add-on later, but that is just a 
thought I had.
    I wanted to ask you, General Abizaid, when we have had 
Secretary Rumsfeld before the committee over the last couple of 
years, this discussion has come up--and it is been in the press 
quite a bit--and on the Senate side, about the issue of troop 
strength in Iraq and the adequacy of the troops.
    And what Secretary Rumsfeld has told us is that any 
additional requests for additional troops that he has have been 
responded to and he has authorized additional troops.
    When the Schlesinger report came out on some of the 
prisoner abuse issues--I want to read just a couple sentences 
from it, if I might. It says, ``A system is in place for 
command to submit a formal request for forces, RFF. Earlier, 
Combined Joint Task Force-7 (CJTF-7) had submitted a request 
for forces for an additional judge advocate organization, but 
CENTCOM would not forward it to the Joint Chiefs of Staff. 
Perhaps this experience made CJTF-7 reluctant to submit a 
request for forces for units,'' and that is the end of the 
quote. And this is, of course, before you were in your position 
that you are in now.
    My question and concern is, then--one reason that Secretary 
Rumsfeld may not have the request for troops is nobody wanted 
or desired any troops. This is one example where someone, a 
unit, did want troops, and it never was forwarded to him. Has 
there been an atmosphere created, do you think, over the last 
couple years, that word has gotten around, ``We really do not 
want to have any additional requests for troops. Make do with 
what you have''? Is that a possibility or not?
    General Abizaid. Sir, it is a good question. I believe that 
we have, in broad terms--in the specifics, of course--I mean, 
it is a big organization. There are 225,000 people in the 
region. In broad terms, do we have the combat capability 
necessary to accomplish our missions? The answer is yes.
    Specifically, are there some shortages out there? For 
example, there are shortages of interrogators and translators 
and some intelligence specialists that just are not in the 
system.
    As General Brown has testified today, he has shortages that 
he is trying to work through in his force structure with regard 
to PSYOPS people and civil affairs people.
    But with regard to combat capability, there are a lot of 
different ways that you solve the problem.
    First of all, I would always expect my commander in the 
field, General Casey, to look to see what he can do with his 
forces by moving them around. We do not want to get in the 
occupation mentality.
    Forces are mobile. They are meant to move in the 
battlefield, go to where they can influence the action. And he 
was very creative in the use of that during the November 
offensives in Fallujah.
    Second, I have a reserve, and I have the capability to move 
forces within my own theater to help influence the action 
militarily. And on numerous occasions, our reserve, which is 
generally a MEU, a Marine Expeditionary Unit, has been 
committed to General Casey to use as he requested in a specific 
action.
    And then third, we go to the secretary when we think that 
we need additional force structure to accomplish the mission, 
which is what we did for elections in Afghanistan, elections in 
Iraq and during the various major offensive operations we have 
had in Iraq.
    Dr. Snyder. I wanted to ask about the election, if I might, 
because it seemed like you all did a really good job, as you 
pointed out earlier, I think in the discussion about the number 
of insurgency forces. You estimate they gave it their best shot 
during that time. It is part of that. And the numbers you 
thought--I think you said 3,500.
    But that was also a time when you all had really focused on 
providing increased stability with it, and there was a 
temporary increase of the number of our troops in-country.
    Another way to look at that would be to say, ``Well, the 
number of Iraqi troops stayed the same, the number of 
insurgents was probably about the same, the number of Iraqi 
people was about the same, the difference may have been the 
number of American troops that were working overtime, kept on 
for that period of time.''
    Is that something you considered in your analysis, that 
maybe additional U.S. troop strength did add to increased 
stability and safety for that period of time? And if so, what 
does that mean for the time period we are in now and the future 
weeks and months?
    General Abizaid. We looked at it very closely. We had, as 
you know--or you may not know--20 brigades worth of combat 
power in Iraq at the time. That is up from the base that had 
been established of 17.
    We are just about back down to 17 again now. And it is my 
view and General Casey's view that the increasing capacity and 
capability of the Iraqi security forces have allowed us to go 
back down to 17.
    And I think that the primary factor in the elections that 
made them successful was the fact that the Iraqi security 
forces could spread out throughout the country and do the 
close-in and the mid-level security around the polling stations 
and within the area that gave people confidence.
    So, do not get me wrong, our forces are very important for 
stability, but the forces that will win the insurgency and gain 
the confidence of the people will be Iraqi forces.
    Dr. Snyder. Thank you. Thank you, gentlemen, for being 
here. Thank you, Mr. Chairman.
    The Chairman. I thank the gentleman. And the gentleman from 
Missouri, the Ranking Member, is recognized to wrap this thing 
up.
    Mr. Skelton. Thank you so much.
    I have two questions, one for each of the gentlemen.
    General Abizaid, the Department's Comptroller's office and 
the Joint Staff met with our committee staff recently, and they 
said that the very last funding that would be required for the 
Iraqi security forces, including to build their combat support 
capability, is the $5.7 billion, over and above the $5.2 
billion that have been previously appropriated.
    Is that correct? Is this the last penny that will be sought 
for the Iraqi security forces, as they committed to our staff?
    General Abizaid. Congressman Skelton, I cannot speak for 
understanding the question, because I have not talked to the 
Comptroller about it or understand whether or not a policy 
decision might have been made with regard to not asking for any 
more money.
    Mr. Skelton. Is this news to you?
    General Abizaid. I do not know the context of the 
discussion with the Comptroller.
    Mr. Skelton. Is this news to you that--well, the context is 
that this is the last funding. Is this news to you?
    General Abizaid. I do not know how to answer the question.
    Mr. Skelton. Well, if it is news to you, say yes. If it is 
not news to you, say no.
    General Abizaid. It is not as simple as you would like it 
to be, Congressman.
    Mr. Skelton. Well, try your best.
    General Abizaid. I believe that the Iraqi security force 
requirement that we put in the supplemental is necessary. I 
cannot say that we will never ask for anything ever again.
    Mr. Skelton. That answers my question. Thank you.
    General Brown--well, first, thank you, General Abizaid, for 
your service. It is not easy.
    As I said at the outset, your command is one of the most 
important commands our country has had in decades. We wish you 
well and we wish you success.
    General Brown, you said in your earlier statement that the 
force levels for the Special Operations Forces are not now what 
they should be. What are they now?
    General Brown. I do not have exactly what they are today. 
By the end of 2005, with our current estimated growth, they 
will be at 51,400.
    Mr. Skelton. And how much more would you desire on top of 
that?
    General Brown. By the end of 2006, we will grow about 
another 1,400 people.
    And then there is some growth laid in through our program 
objective memorandum (POM) that would take us up, a rough 
estimate of another 1,000 or so. But I would be glad to come 
back to you and show you exactly what that is, but I think it 
is about, from now and throughout the POM, about 3,000.
    Mr. Skelton. About 3,000. You do not go out and recruit 
these folks off the street, do you?
    General Brown. Some, we do. We have an 18 X-ray program, 
where we do take----
    Mr. Skelton. How many do you recruit off the street?
    General Brown. Well, we take 1,500 a year, to be a Green 
Beret, off the street. Of that, about 1,200 show up at Fort 
Bragg, make it through the first three phases to get into our 
training. I know I am giving you a long answer. About 400 of 
those will ever be a Green Beret.
    So we get about 400 a year off the street.
    Mr. Skelton. So the remainder come from the----
    General Brown. Active forces.
    Mr. Skelton [continuing]. Active duty forces. Am I correct?
    General Brown. Yes, sir.
    Mr. Skelton. It takes a while to, A, grow a sergeant or a 
petty officer that is capable of doing your strenuous----
    General Brown. You are exactly right.
    Mr. Skelton [continuing]. Missions. And I know you will say 
you are taking the cream of the crop; although, I know a lot of 
the cream of the crop you do not take, because they are left 
running the divisions and the battalions and the companies. But 
you take a lot of very, very able people. Am I correct?
    General Brown. Yes, sir.
    What we try and take is the right people, people that fit 
into this kind of a business.
    Mr. Skelton. And it took the Army or the Navy or whatever 
the service may be a while to grow these people, did it not, 
before you take them?
    General Brown. Yes, sir.
    Mr. Skelton. You take them when they are what, sergeants, 
staff sergeants, that level?
    General Brown. Well, you can apply about the E-4 level, but 
traditionally it is about an E-5, E-6 level.
    Now, I am particularly talking about Green Berets, sir, 
because the SEALs are totally different. We do not recruit them 
off the street, but the SEAL comes directly out of his basic 
and advanced training, right into the SEALs.
    That is a little different. They are a little younger 
force. I am particularly talking about the Green Berets when I 
am talking about the special force.
    Mr. Skelton. And the fact that they are taken from the 
regular force lessens the number of the regular Army troops, is 
that not correct?
    General Brown. Well, the standard--there is a certain 
amount of Army forces. We count against those forces whether 
you are in SOF or in a regular Army unit.
    So we are authorized--my Army force is about 26,000. That 
is included in the Army's end-strength numbers.
    Mr. Skelton. Okay. Thank you. And a special thanks to you 
for your excellent leadership, General Brown. And it is good to 
have both of you here. Thank you.
    The Chairman. I want to thank the gentlemen. And gentlemen, 
thank you for giving us a very complete and full hearing. We 
appreciate it.
    And just one last question. You have, obviously, the 
supplemental that you sent up, that has been sent up. We are 
going to vote on it shortly.
    In your estimation, General Abizaid, General Brown, that 
supplemental meets the requirement for the 2005 period?
    General Brown. For Special Operations Command it does.
    The Chairman. Okay.
    General Abizaid. For Central Command it does.
    The Chairman. Okay. Thank you very much. And the committee 
stands adjourned here.
    [Whereupon, at 1:14 p.m., the committee was adjourned.]


      
=======================================================================




                            A P P E N D I X

                             March 2, 2005

=======================================================================

      
      



=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 2, 2005

=======================================================================

      
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                             March 2, 2005

=======================================================================

      
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
      
=======================================================================


             QUESTIONS AND ANSWERS SUBMITTED FOR THE RECORD

                             March 2, 2005

=======================================================================

      
                   QUESTIONS SUBMITTED BY MR. SKELTON

    Mr. Skelton. Are these engineers being left out of the equation of 
up-armor? Would you ask your staff to take a look at the 97th 
Engineering Combat Battalion?
    General Abizaid. The Department of Defense has worked closely with 
Congress and the industrial base over the last year to accelerate 
efforts to provide better protection for our service members. These 
efforts included increased production of body armor, Up-Armored High 
Mobility Multi-Wheeled Vehicles (HMMWV's) (UAH) and vehicle Add on 
Armor (AoA). This focus has resulted in significant force protection 
improvements for our deployed forces.
    Providing armor protection for wheeled vehicles continues to be a 
top priority in the theater and will continue until we have provided 
armor protection for every vehicle that requires it.
    Directions from the services and the commanders responsible in both 
Kuwait and Iraq have resulted in the institution of standard operating 
procedures, effective 15 February 2005, that require all vehicles 
operating off protected compounds to have at least Level III armor 
protection. The armoring effort continues in both Iraq and Kuwait.
    Specifically addressing the unit in question, the 92nd Engineer 
Battalion possesses 255 pieces of armored equipment which includes: 
HMMWV's, dump trucks, bull dozers, medium (five ton) tractors, and 
heavy equipment transportation systems. The aforementioned equipment 
represents the majority of the battalion's organic assets as well as 
additional, temporarily loaned equipment.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. TAYLOR
    Mr. Taylor. In a counterinsurgency, can you win a counterinsurgency 
when over half of the people have an unfavorable view. What steps are 
we taking as a Nation to turn that around?
    General Abizaid. United States Central Command (USCENTCOM) 
Strategic Communications synchronizes and coordinates strategic themes, 
messages, and actions in support of USCENTCOM operations and national 
strategic goals. USCENTCOM Strategic Communications also works with the 
National Security Council, The Department of State, and other 
government agencies to assure coordination of efforts to influence 
perceptions within the Central Command Area of Responsibility. Inter-
directorate efforts within USCENTCOM are conducted via a Joint 
Synchronization Board chaired by the USCENTCOM Chief of Staff. 
USCENTCOM Strategic Communications also provide Strategic 
Communications Guidance to Combined Joint Task Forces and USCENTCOM 
component commands. Please see the attached file: Strategic 
Communications Brief, which reviews the above.
    [The information referred to can be found in the Appendix on page 
137.]
                                 ______
                                 
                 QUESTIONS SUBMITTED BY MR. HOSTETTLER
    Mr. Hostettler. Explain how you use the US Coast Guard for your 
theater engagement purposes? Would you like more Coast Guard assets in 
your AOR?
    General Abizaid. USCENTCOM employs Coast Guard vessels in the 
CENTCOM AOR to conduct the same Theater Security Cooperation (TSC) 
activities as the US Navy. This includes engagement with regional 
maritime military and law enforcement agencies, Mobile Needs Assessment 
visits, Mobile Training Team (MTT) visits that provide training in 
maritime law enforcement tactics, techniques and procedures, local 
receptions, Distinguished Visitor (DV) events, Captain's Calls with 
local officials, Community Relations events (COMREL), and various other 
Media events. Additionally, USCG vessels and crews are actively engaged 
in operations at sea. They provide critical expertise in maritime law 
enforcement that is essential to the success of maritime security 
operations protecting key oil infrastructure, the policing of national 
territorial waters, and support for Kuwaiti and Iraqi maritime forces.
    The USCG's presence in the CENTCOM AOR benefit's our TSC activities 
and enhances our ability to carry out the operations described above. 
However, the current deployment of one cutter per year is sufficient.
    Mr. Hostettler. What advantages does the Coast Guard bring you when 
dealing with many small international navies in your AOR that are more 
like the Coast Guard in force structure and missions than the US Navy?
    General Abizaid. Coast Guard personnel have extensive experience in 
littoral operations both in the defense and domestic law enforcement 
roles. Familiarity with the complexity and nuances of small platform 
operations serves as common ground with regional forces interaction and 
interoperability training. The USCG also provides unique insight to the 
challenges and advantages of exercising across departmental (ministry) 
boundaries in both day to day operations and in the face of large scale 
disasters (i.e.: Environmental Response, Natural Disasters, Terrorist 
Alerts, etc.). Additionally, the presence of a US Coast Guard Cutter in 
the ports of regional nations often presents a less intimidating 
picture of US goodwill than that of a US Naval warship.
    Mr. Hostettler. Should the Coast Guard be removed from 
participation in future wars? If not, why not?
    General Abizaid. The Coast Guard brings important and unique 
capabilities to the CENTCOM Area of Responsibility and their continued 
participation in current and any future operations is important to our 
regional objectives. The USCG has been an active participant in every 
major military campaign since World War II. The 2002 National Fleet 
agreement between the USN and USCG cements this relationship and 
ensures that the USCG is capable of supporting a broad spectrum of 
national security requirements from power projection to defense of the 
homeland. Operations in the Arabian Gulf have highlighted the important 
synergies between the USN and USCG. USCENTCOM relies on the unique 
expertise of the USCG in areas including Port Security Teams, Patrol 
Craft, Law Enforcement Detachments (LEDETs), and Environmental Response 
Planning & Management.
    Mr. Hostettler. What improvements/changes does the Coast Guard need 
to make in order to be more useful to meet your mission objectives?
    General Abizaid. Current USCG acquisition efforts such as the 
Deepwater Program will greatly enhance the interoperability between 
USCG and USN units in the CENTCOM AOR. Some of the smaller Coast Guard 
vessels have sea state limitations which impact operations while 
operating-in the rougher waters of the North Arabian Sea, Gulf of Oman 
and the Gulf of Aden. These are areas where we intend to focus our 
security assistance operations over the long term.
    Current USCG Command, Control, Communications, Computers, and 
Intelligence (C4I) capabilities limit interoperability with US Navy and 
Coalition forces. Additionally, USCG Cutters that deploy to the CENTCOM 
AOR should have an embarked helicopter and be equipped with all 
required communications equipment, including CENTRIX and Battle Force 
E-mail, to more effectively integrate with U.S. and Coalition ships.
    Mr. Hostettler. Do you need to increase the number of Coast Guard 
personnel on your staff?
    General Abizaid. The navies of most nations in the Central Command 
region have missions that closely mirror those of the United States 
Coast Guard (USCG), yet, there are only two USCG officers on the 
CENTCOM maritime component staff. The duties of the presently assigned 
USCG personnel include liaison between United States Naval Forces 
Central Command (NAVCENT) and the USCG Headquarters, acting as the 
primary staff officers for USCG and law enforcement issues, providing 
critical interface to U.S. Embassies for coordination and 
administration of USCG international training initiatives with regional 
nations, and serving as the Territorial Water Operations training and 
assessment team for the Iraqi Navy.
    Over the past year, NAVCENT has sought to expand Theater Security 
Cooperation (TSC) efforts with regional navies and leverage these 
similarities by increasing the level of USCG participation in TSC 
initiatives. However, NAVCENT efforts have been frustrated by the 
limited number and high workload of the presently assigned USCG 
personnel. Additional USCG officers would greatly facilitate efforts to 
expand maritime TSC initiatives and significantly bolster engagement 
with regional maritime law enforcement agencies, which USCG personnel 
are uniquely equipped and trained to support. Moreover, these personnel 
would greatly improve NAVCENT's ability to develop and expand USCG 
Mobile Needs Assessment plans and visits and provide a permanence that 
would facilitate enduring engagements with Regional Maritime forces. 
Due to the significant role USCG personnel play in CENTCOM's TSC 
efforts, NAVCENT is working with the Coast Guard and has begun the 
process to officially request and resource additional Coast Guard 
personnel for their staff.
    Mr. Hostettler. Are you concerned about the Coast Guard's ability 
to sustain its readiness in the future given its antiquated fleet of 
aircraft, cutters, and communications systems?
    General Abizaid. Without an adequate modernization effort, the USCG 
will be hard pressed to fulfill both its requirement in support of the 
U.S. Navy and its expanded role in homeland defense. The USCG Deepwater 
fleet modernization program is essential to ensure the continued 
viability of the USCG and to enhance their ability to effectively 
contribute to our efforts in the GWOT.
    Mr. Hostettler. Would you like to see a Coast Guard training team 
assigned to your Area of Responsibility on a permanent basis?
    General Abizaid. Employment of a permanently assigned Coast Guard 
training team would provide a tremendous force multiplier to our 
Theater Security Cooperation efforts in this region. Current 
constraints on a permanent USCG training Team include demands on USCG 
personnel resources and no dedicated authorized funding for such a 
program. As you know, the Department of State is the custodian of all 
funds authorized for military to military training with foreign 
nations.
    Mr. Hostettler. Do you feel that the Integrated Priority List (IPL) 
process directly addresses Coast Guard concerns?
    General Abizaid. It would be difficult to say this process directly 
addresses those concerns. The Integrated Priority List process reflects 
capabilities based approach to documenting needed enhancements vice a 
program/platform specific approach. Additionally, there are often many 
competing requirements for scarce resources and ultimately DoD 
leadership determines how best to address capability shortfalls.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. RYUN
    Mr. Ryun. As we are all aware, we have a lot of challenges facing 
us in the Middle East, particularly in Iran. In what ways will CENTCOM 
be working to address these challenges?
    General Abizaid. USCENTCOM addresses Middle East challenges by 
continuously developing and assessing military contingency plans and by 
conducting Theater Security Cooperation activities throughout our Area 
of Responsibility (AOR). Theater Security Cooperation activities create 
enduring bilateral relations which deter destabilizing activities and 
contribute to the professionalization and reliability of armed forces 
in Middle Eastern partner states. USCENTCOM strengthens military and 
governmental relationships throughout our AOR through the International 
Military Education and Training (IMET) Program, bilateral and 
multilateral exercise programs, and Foreign Military Sales of US 
equipment which facilitates interoperability and paves the way for 
effective participation of regional nations in current and future 
coalition operations.
    Mr. Ryun. Since September 11th, we have been searching for Osama 
Bin Laden. Much of our effort has been focused on searching the 
mountains of Pakistan. To what degree is the Pakistani government 
helping our search?
    General Abiziad. [The information referred to is classified and is 
retained in the committee files.]
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. TURNER
    Mr. Turner. In January, I traveled with Chairman Saxton to 
Afghanistan and had the opportunity to speak with President Karzai. In 
our meeting, he stated the need to encourage local farmers to refrain 
from opium production. In your testimony, you stated ``Unchecked 
expansion of poppy cultivation and the drug trafficking culture that 
accompanies it poses a clear threat to Afghan and regional stability.  
.  . Creating viable alternate livelihoods to counter the ``easy 
money'' of poppy production will take time.'' What plans are underway 
to support the request of President Karzai? Also, what resources in the 
FY05 Supplemental will be used to support anti-narcotics activities?
    General Abizaid. USCENTCOM supports President Karzai's Alternative 
Livelihoods (AL) initiatives with USAID acting as the lead U. S. 
Government (USG) agency for AL programs in Afghanistan. We assist USAID 
in this endeavor by coordinating the expenditure of Commanders 
Emergency Response Program (CERP) funds for local relief and 
reconstruction projects and by providing an AL public awareness 
campaign. To help counter the drug trade in Afghanistan, we provide 
International, USG and Afghan law enforcement agencies intelligence, 
mobility support and training that actively support initiatives to 
build an indigenous Afghan counter narcotics capability. The FY05 
Supplemental provided USCENTCOM $854M in CERP authority, a significant 
increase from the previously authorized $500M. This will greatly 
accelerate our relief and reconstruction efforts and help bolster 
economic opportunities across the country. Additionally, the 
supplemental provided $242M for drug interdiction/counter drug 
activities to support our operations, $34M of which will go directly to 
the Afghan government to assist in the development of their indigenous 
counter narcotics force.
                                 ______
                                 
               QUESTIONS SUBMITTED BY MR. RYAN FROM OHIO
    Mr. Ryan. How many hospitals and city council chambers or city 
halls, schools have we built over the past year or two that we actually 
constructed and were blown up? How often is this happening? And do you 
have any hard numbers for us?
    General Abizaid. We do not track that type of data. I can tell you 
that some of the structures that were repaired or rebuilt using 
coalition funds were subsequently damaged during criminal or insurgent 
attacks. For example, insurgent attacks on Iraqi police stations, 
government facilities, election offices, and oil infrastructure 
undoubltly damaged buildings or other facilities that we paid to have 
repaired. It is important to look at the larger picture, which shows 
Iraqi government, law enforcement, and oil distribution and export 
capabilities are improving to the point where coalition oversight is no 
longer necessary. The money spent on the repair of damaged 
infrastructure was absolutely necessary to insure this progress.

                                  <all>

</pre></body></html>
